<html>
<title> - ONGOING EFFORTS TO COMBAT PIRACY ON THE HIGH SEAS</title>
<body><pre>[Senate Hearing 111-165]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-165

           ONGOING EFFORTS TO COMBAT PIRACY ON THE HIGH SEAS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2009

                               __________

         Printed for the use of the Committee on Armed Services



                  U.S. GOVERNMENT PRINTING OFFICE
53-692 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)








                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

           Ongoing Efforts to Combat Piracy on the High Seas

                              may 5, 2009

                                                                   Page

Flournoy, Hon. Michele A., Under Secretary Of Defense For Policy.     4
Winnefeld, VADM James A. Jr., USN, Director for Strategic Plans 
  and Policy, Joint Chiefs of Staff..............................    10
Mull, Hon. Stephen D., Senior Advisor to the Under Secretary of 
  State for Political Affairs....................................    12
Caponiti, James A., Acting Deputy Administrator/Assistant 
  Administrator, Maritime Administration.........................    16

                                 (iii)

 
           ONGOING EFFORTS TO COMBAT PIRACY ON THE HIGH SEAS

                              ----------                              


                          TUESDAY, MAY 5, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
SR-325, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
E. Benjamin Nelson, Webb, Hagan, Inhofe, Sessions, Thune, 
Martinez, Wicker, Burr, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Creighton Greene, 
professional staff member; Michael J. Kuiken, professional 
staff member; Gerard J. Leeling, counsel; and Russell L. 
Shaffer, counsel.
    Minority staff members present: David M. Morriss, minority 
counsel; and Dana W. White, professional staff member.
    Staff assistants present: Mary C. Holloway, Jessica L. 
Kingston, Christine G. Lang, and Brian F. Sebold.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Christopher Caple, assistant to 
Senator Bill Nelson; Jon Davey, assistant to Senator Bayh; 
Jennifer Stout, assistant to Senator Webb; Julie Holzhueter and 
Roger Pena, assistants to Senator Hagan; Anthony J. Lazarski, 
assistant to Senator Inhofe; Lenwood Landrum and Sandra Luff, 
assistants to Senator Sessions; Jason Van Beek, assistant to 
Senator Thune; Brian W. Walsh and Erskine W. Wells III, 
assistants to Senator Martinez; Chris Joyner, assistant to 
Senator Burr; and Rob Epplin and Chip Kennett, assistants to 
Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today we have four 
witnesses before the committee to discuss the government's 
efforts to combat piracy on the high seas. We're delighted to 
have with us: Under Secretary of Defense for Policy Michele 
Flournoy; Director of Strategic Plans and Policy on the Joint 
Staff Admiral Sandy Winnefeld; Senior Advisor to the Under 
Secretary of State for Political Affairs Ambassador Steve Mull; 
and Acting Deputy Administrator of the Maritime Administration 
(MARAD) James Caponiti.
    The recent surge in piracy off the coast of Somalia and in 
the Gulf of Aden has moved the issue of piracy on the high seas 
out of the history books and off the movie screens and onto the 
front pages of the world's newspapers. Piracy must be an urgent 
part of our National security dialogue. The April pirate attack 
on the U.S. flag ship Maersk Alabama a few weeks ago and the 
ensuing rescue operation of ship Captain Richard Phillips, 
orchestrated by our Nation's military, and particularly our 
Navy and Navy SEALs, underscores the value of the Armed Forces 
in confronting and stopping piracy.
    However, the success of that rescue mission has tended to 
form the public debate toward a military solution to the piracy 
problem. While it is widely agreed that the naval forces of the 
world do have a critical role to play in deterring and 
combating pirates, the problem is more complex and requires a 
holistic approach combining military efforts with deterrence, 
collaboration with allies, and ongoing diplomatic outreach, 
just as is the case in dealing with Iraq or Afghanistan.
    Piracy, although generally considered a scourge of the 
world's oceans, has its origins on land and has usually been 
defeated on land as a result of political and economic changes 
that have evolved over time. Today, policymakers are searching 
for solutions to combat piracy and, more broadly, to address 
the situation in Somalia, a failed state that lacks a 
functioning government capable of enforcing laws or policing 
and securing its territory.
    It is imperative that the international community come 
together to confront and solve this growing problem. 
Ultimately, the solution resides ashore, not just through 
action on the open seas. The available responses from 
Washington and the international community include supporting 
the Somali Transitional Federal Government, building the 
capacity of Somali security forces, and creating a more robust 
African Union peacekeeping mission.
    Discussions of how to proceed are inevitably complicated by 
the memory of the American people, who have not forgotten that 
the U.S. Armed Forces were sent to Somalia once before. While 
the long-term solution involves engaging broadly on Somalia's 
myriad issues ashore, we must consider near-term solutions to 
protect ships, cargoes, and, most importantly, seafarers from 
the proliferation of piracy in the region.
    Currently the primary mechanism for military involvement in 
the issue is Combined Task Force-151 (CTF-151), which has 
brought together naval forces of our allies and is sharing the 
water space with nations as diverse as Pakistan, Russia, India, 
and China. The task force has focused the attention of many 
nations in pursuit of our joint interests of enhancing the 
safety of commercial maritime routes and international 
navigation in the Gulf of Aden. Late last week, the North 
Atlantic Treaty Organization (NATO) extended its contribution 
of as many as 10 ships to the counterpiracy mission.
    We cannot expect CTF-151 to do all the work in the maritime 
environment. The global commercial industry, to include the 
shipping companies and their insurers, must respond as well. 
Industry needs to develop effective piracy countermeasures, 
including training and equipping of a ship's crew, rather than 
relying on ransom payments that enable pirates to build 
infrastructure and to bolster their efforts.
    The venue to develop consensus for these efforts seems to 
be the contact group for piracy off the coast of Somalia, a 
U.S.-foreign group designed to internationalize the response. 
This group is scheduled to meet next week. Our committee hopes 
our witnesses will speak to the goal of these discussions.
    Another aspect of the overall strategy involves the 
prosecution of suspected pirates. Earlier this year, the United 
States signed a bilateral agreement with the Government of 
Kenya which established a mechanism by which alleged pirates 
could be held accountable through criminal prosecution. While 
this agreement may show some promise over time, we have in 
recent weeks seen our partner nations release pirates back to 
the very fishing towns in Somalia from which they came. The 
committee is interested to hear from our witnesses how the 
United States is working with other nations to address the 
criminal prosecution of suspected pirates.
    Today the committee hopes to learn from our witnesses the 
current role of the U.S. Armed Forces and the details of the 
whole-of-the-government approach that is necessary in order to 
adequately combat the threat. Also, we hope our witnesses will 
speak to the appropriate role of the military in countering 
piracy, what works and what does not in terms of military 
tactics, techniques, and procedures; how our commanders assess 
the effectiveness of the CTF-151 mission thus far; whether the 
CTF-151 mission is sustainable over time; whether the necessary 
international and domestic authorities are in place to 
effectively combat piracy; and what adjustments need to be made 
to current strategies.
    We'll also be interested in learning what plans are under 
consideration to address the situation inside Somalia, what 
role the United States may be asked to play, and what requests 
we are making of our partners.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    It's pretty remarkable that, in this first decade in the 
21st century, that we should be having a hearing on the issue 
of piracy, particularly involving pirate attacks on the coast 
of Africa. We can almost look back in time 200 years to the 
first decade of the 19th century and ask our predecessors for 
their advice. Today we hear from representatives of the Obama 
administration, while in their day, 200 years ago, pirate 
attacks off Africa were a problem for then the new Thomas 
Jefferson administration.
    So both now and then, our resolve is being tested. Our 
determination as a Nation not to pay ransom--keep in mind, this 
was 200 years ago--to pirates and their sponsors ashore, the 
international terrorists of their day, helped establish the 
enduring character of America by demonstrating that we would 
not tolerate attacks on American property and citizens anywhere 
in the world, no matter how far from our shores. So that's 
still true today, hopefully.
    The decision of the United States to fight the pirates was 
carefully considered, based on a keen appreciation as a 
seafaring nation that paying ransom to pirates or other 
terrorists simply emboldens them and increases the risk to our 
national security. That was 200 years ago and the same is true 
today.
    I recently returned from a trip to Djibouti, where I had 
the opportunity to discuss the pirate situation in detail with 
Admiral Fitzgerald, the commander of the U.S. Navy force in 
Africa, and Rear Admiral Kurta, commander of the Combined Joint 
Task Force-Horn of Africa. So I come to this hearing with some 
background in working in that area in the Horn of Africa, as 
well as other parts of Africa.
    The threat of pirate attacks in the Gulf of Aden and off 
Somalia's coast has been steadily growing since last August. 
However, the recent attacks on the U.S.-flagged vessel the 
Maersk Alabama and the dramatic and extraordinarily 
professional rescue of Captain Richard Phillips by Navy SEALs 
last month has sharpened the seriousness of this issue for the 
United States. I look forward to hearing details of this, as 
many details as you are able to provide in an open meeting, as 
to the rescue of Captain Phillips.
    I think the success of that operation is something that 
other countries have looked at and have admired us for. I 
understand that the Somali tribes have sworn revenge against 
the United States and other U.S. vessels. Let's just not forget 
what happened 200 years ago. We made a determination that you 
can't negotiate with these people, and if there's a way that 
they could inflict harm on us they would be doing it anyway.
    So I would like the witnesses to discuss the details of our 
new coalition task force off Somalia and how it coordinates 
with other navies, including those of the European Union (EU), 
Russia, China, India, and Saudi Arabia, among others, and the 
challenges faced by these efforts at sea.
    I've also been concerned about a lot of the pirate activity 
off the west coast of Africa, in the Sea of Guinea, with the 
recent finds out there. I notice no one right now is talking 
much about that, but it's a topic that needs to be a part of 
this debate and this discussion.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Secretary Flournoy.

   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Ms. Flournoy. Mr. Chairman, Senator Inhofe, and 
distinguished members of the committee, we very much appreciate 
this opportunity to testify today about the growing problem of 
piracy on the high seas. We are currently seeing a dramatic 
upswing in reported pirate attacks, particularly off the coast 
of Somalia. In the first quarter of 2009, 102 incidents of 
piracy were reported to the International Maritime Bureau, 
almost double the number during the same period in 2008. 
Reducing incidents of piracy is important both to the United 
States and to the international community. Freedom of the seas 
is critical to our National security and international 
commerce. It's also a core principle of international law. 
Piracy endangers innocent mariners, disrupts commerce, and can 
cause severe economic damage to shipping companies and 
contribute to instability ashore.
    From a Department of Defense (DOD) perspective, our 
strategy goals with regard to Somalia piracy include 
deterrence, disruption and interdiction, and prosecution. But 
achieving these goals will be challenging for several reasons. 
First, the geographic area affected is vast. The pirates 
operate in a total sea space of more than a million square 
nautical miles, making it difficult for naval or law 
enforcement assets to reach the scene of a pirate attack 
quickly enough to make a difference. In this vast expanse of 
ocean, tracking a few dozen low-tech pirate skiffs and 
intervening to stop attacks that can last only a few minutes is 
exceptionally difficult. When not actively engaged in piracy, 
pirate vessels often blend in easily with ordinary shipping, 
and when they return to land-based sanctuaries in Somalia 
pirates become even harder to locate.
    Second, the root causes of Somali piracy lie in the poverty 
and instability that continue to plague that troubled country. 
In an environment where legitimate economic opportunities are 
scarce, piracy and other forms of criminal activity flourish. 
As you know, there is still no effective central government or 
law enforcement capacity in Somalia, and pirates consequently 
operate with relative impunity from coastal fishing villages. 
Pirates also operate in a cash economy, making their profits 
difficult to track and interdict.
    A third challenge is that serious gaps remain in the 
international community's ability to create an effective legal 
deterrent by prosecuting pirates for their crimes. 
International law allows all States to exercise jurisdiction 
over pirates, but some States still lack appropriate domestic 
legislation or lack the prosecutorial or judicial capacity to 
prosecute pirates in their own courts.
    Fourth and finally, many in the merchant shipping industry 
continue to assume unrealistically that military forces will 
always be present to intervene if pirates attack. As a result, 
many have so far been unwilling to invest adequately in basic 
security measures that would render their ships far less 
vulnerable.
    Mr. Chairman, these varied and complex challenges mean that 
there will be no simple or single solution to the growing 
problem of piracy off the Somali coast. That said, a few 
statistics are important to help keep the problem in 
perspective. Consider piracy in the Gulf of Aden between 
Somalia and Yemen. Each year more than 33,000 vessels transit 
the Gulf of Aden and in 2008 there were 122 attempted pirate 
attacks, but only 42 of those were successful.
    In other words, pirates attacked under one half of 1 
percent of shipping in the Gulf of Aden and their attacks 
succeeded only about a third of the time. This pattern appears 
to be similar throughout the region.
    That doesn't mean that we can ignore the problem, of 
course. Pirate attacks are increasing in both number and in 
ambition and, although Somali piracy currently appears to be 
motivated solely by money, not ideology, and we see no 
meaningful links between Somali pirates and violent extremists, 
we must ensure that piracy does not evolve into a future 
funding source for terrorism.
    But the relatively low incidence of pirate attacks does 
have implications for how we allocate military resources. As 
the members of this committee in particular know, DOD has 
urgent priorities around the globe. Many of the resources most 
in demand for counter-pirate activities, such as intelligence, 
surveillance, and reconnaissance (ISR), are the same assets 
that are also urgently required for regional counterterrorism 
activities as well as ongoing operations in Afghanistan and 
Iraq.
    We must find more effective ways to address the growing 
problem of piracy, but we must also ensure that this does not 
come at the expense of other critical commitments. We believe 
this can be done. DOD is working closely with other agencies 
and departments in our government to develop a comprehensive 
regional counter- piracy strategy and we are effectively 
seeking engagement from other states, as you mentioned, 
particularly the creation of CTF-151.
    Twenty eight States have already begun to assist and we are 
seeing concrete results. Since August 2008, international 
efforts have led to the destruction or confiscation of 36 
pirate vessels and the confiscation of numerous weapons. The 
international community has also turned over 146 pirates to law 
enforcement officials in various countries for prosecution.
    We and our allies are also working directly with merchant 
shipping lines to undertake vulnerability assessments and 
disseminate best practices. Our goal is to encourage all 
vessels to take appropriate security measures to protect 
themselves from pirates.
    Here again, some statistics are instructive. When we look 
at patterns in pirate attacks in the region, we see that of 
unsuccessful attacks, a full 78 percent were thwarted by 
actions taken by the crews of the ships under attack. Military 
or law enforcement interventions played a role in thwarting 
pirates in only 22 percent of unsuccessful attacks. This 
highlights the fact that the single most effective short-term 
response to piracy will be working with merchant shipping lines 
to ensure that the vessels in the region take appropriate 
security measures.
    These include both passive and active defense measures. 
Passive measures include maintaining good communications with 
maritime security authorities, varying routes, avoiding high-
risk areas, removal of external ladders, posting lookouts, 
limiting lighting, rigging barriers, and so forth. Active 
defense measures can range from rigging fire hoses to repel 
pirates to maintaining professional civilian armed security 
teams on board.
    While there is some concern in the shipping industry with 
regard to security teams, we and other agencies are working 
with industry representatives to determine whether this might 
be a viable option for highly vulnerable ships, such as low 
freeboard and slow vessels.
    As part of this effort, it may be useful for Congress to 
consider developing incentives to encourage merchant shipping 
to invest in security measures. These could range from tax 
credits to reduced insurance rates for ships with enhanced 
security. Ultimately, it may be appropriate to mandate some of 
these actions.
    We will continue to respond when U.S.-flag vessels and U.S. 
citizens are attacked by pirates. But when ships have effective 
on-board security measures in place, the vast majority of 
attempted pirate attacks can be thwarted without any need for 
military intervention. Most pirates are opportunistic 
criminals. Wherever possible, they will focus on the easy 
targets and avoid the difficult ones. Our main task is to help 
commercial carriers turn their ships into hard targets.
    We will also continue longer-term efforts to prevent and 
punish piracy. We will work with allies and regional states to 
develop their capacity to patrol the seas and protect their own 
shipping, and we will encourage them to take any steps 
necessary to prosecute pirates in their own courts. And we will 
work, when possible, with Somali authorities to address the on-
shore components of piracy, tracking pirate investors and safe 
havens.
    Finally, we will work over the long term to address some of 
the root causes of piracy in the region, the ongoing poverty 
and instability in Somalia.
    Many of these efforts dovetail with our existing 
development and counterterrorism goals in the region and, while 
there are no quick fixes, over the long term increasing local 
governance capacity and fostering sustainable economic 
development in Somalia are crucial both to reducing piracy and 
to countering the threat of violent extremism. We are confident 
that progress against piracy can be made through an enhanced 
public-private partnership with the shipping industry in the 
near term.
    Thank you again for offering us this opportunity to testify 
and we look forward to your questions. Thank you.
    [The joint prepared statement of Ms. Flournoy and Admiral 
Winnefeld follows:]
   Joint Prepared Statement by Michele Flournoy and Admiral James A. 
                               Winnefeld
    Mr. Chairman and members of the committee, we appreciate this 
opportunity to testify about the growing problem of piracy on the high 
seas.
    Piracy is a growing problem, but not a new one. Since humans first 
began to travel and move valuables by ship, there have been pirates. 
Julius Caesar himself was seized by pirates in 75 B.C., and released 
after ransom was paid. Piracy on the high seas was also a major 
preoccupation of the early American republic; by 1800, the young United 
States was paying about 20 percent of total Federal revenues to the 
Barbary States, as ransom and tribute.
    International efforts to combat piracy also have an ancient 
pedigree. Since Roman times, pirates have been deemed hostes humani 
generis: the enemies of all humankind. As a matter of customary 
international law, piracy is the classic crime of ``universal 
jurisdiction,'' meaning that every state has the right to capture and 
prosecute piracy on the high seas, even if its own ships or nationals 
are not involved.
    In the modern era, piracy has become a relatively unusual crime, 
dropping to only 100 to 200 reported incidents annually during the 
1970s and 1980s. In the 1990s, however, piracy began to increase, and 
we are now seeing a dramatic and sudden upswing in reported pirate 
attacks worldwide, as well as geographic shifts in areas of high pirate 
activity. As recently as 2007, the Gulf of Guinea was the most active 
part of the world for piracy, but pirate activity is increasingly now 
found along the Somali coast. In the first quarter of 2009, 102 
incidents of piracy were reported to the International Maritime Bureau, 
nearly double the number of incidents reported during the same period 
in 2008. And nearly all of that increase appears to stem from increased 
pirate activity off the coast of Somalia.
    Reducing incidents of piracy is important both to the United States 
and to the international community. As a general matter, freedom of the 
seas is critical to our national security and international commerce, 
and it is also a core principle of international law, one that all 
nations have a stake in supporting. Piracy endangers innocent mariners, 
disrupts commerce, can cause severe economic damage to shipping 
companies and contribute to instability ashore. Recent pirate attacks 
in the Gulf of Aden and along Somalia's East Coast have targeted U.S. 
and U.S.-supported ships transporting food aid and other humanitarian 
supplies to Somalia and other vulnerable societies, disrupting the flow 
of aid to those who need it most.
    Recent incidents--including the dramatic rescue of the captain of 
the Maersk-Alabama by the U.S. Navy--have increased public and 
international attention to piracy, and resolve has grown for finding 
durable solutions to this problem. At the Department of Defense, we are 
working closely with other agencies and departments to develop 
comprehensive counterpiracy strategies. And the United States is not 
alone in this effort: already, more than 28 other nations are 
conducting counterpiracy operations off Somalia, as are international 
organizations such as the North Atlantic Treaty Organization (NATO) and 
the European Union (EU).
    We are seeing concrete results from our efforts: since August 2008, 
international efforts have led to the destruction or confiscation of 36 
pirate vessels and the confiscation of numerous weapons, including 
small arms and RPGs. The international community has also turned 146 
pirates over to law enforcement officials in various countries for 
prosecution.
    From a Department of Defense perspective, our strategic goals with 
regard to Somali piracy include deterrence, disruption/interdiction, 
and prosecution.
    Achieving these goals will be challenging for several reasons. 
First, the root causes of Somali piracy lie in the poverty and 
instability that continue to plague that troubled country, and 
addressing these root causes will be a lengthy, complicated and 
difficult process. At the moment, pirates can operate with impunity 
from coastal fishing villages as long as they have the support of the 
local Somali clan leadership. Though regional governments in Somaliland 
and Puntland have demonstrated some capacity to provide services, 
including law enforcement services, in most respects Somalia remains 
ungoverned, allowing pirates to use coastal villages as safe havens. 
Pirates also operate in a cash economy, making their profits difficult 
to track and interdict.
    Conflict, instability, and drought have caused a humanitarian 
crisis of long duration in Somalia, where an estimated 3.2 million 
people now rely on international food assistance to survive. In an 
environment where legitimate economic opportunities are scarce, piracy 
and other forms of crime can flourish. In the long run, effectively 
combating piracy off the Somali coast will be linked to our ability to 
help the Somalis themselves increase government capacity and find 
appropriate ways to meet the population's basic needs.
    Second, the geographic area affected is vast: Somali pirates 
operate in a total sea space of more than 1 million square nautical 
miles, making it difficult for naval or law enforcement ships and other 
assets to reach the scene of a pirate attack quickly enough to make a 
difference. In that vast expanse of ocean, tracking a few dozen low-
tech pirate skiffs and intervening to stop attacks that can last only a 
few minutes is exceptionally difficult. When they are not actively 
engaged in piracy, pirate vessels easily blend in with ordinary 
shipping. When they return to land, pirates become still more difficult 
to locate.
    Third, even when pirates are captured, serious gaps remain in the 
international community's ability to prosecute them for their crimes 
and thus create an effective legal deterrent. Although all states may 
exercise jurisdiction over pirates as a matter of international law, 
some states still lack the appropriate domestic laws to prosecute 
pirates. Other states have appropriate domestic legal frameworks, but 
lack the prosecutorial and judicial capacity to effectively hold 
pirates accountable, or lack the political will required.
    We appreciate Kenya's role in prosecuting suspected pirates 
captured the region. But Kenya should not bear the burden for the 
international community. Other affected nations must step up and 
prosecute pirates in their domestic courts as well, just as the United 
States has when our citizens were the victims of an attack.
    Finally, although the merchant shipping industry has made 
significant improvements in on-ship security measures over the last few 
months, far more is needed. Ships from all over the world transit the 
Gulf of Aden and use the shipping lanes along the east coast of 
Somalia, but many assume unrealistically that there is no need for more 
robust shipboard security measures, because military forces will always 
be present to intervene if pirates attack. As a result, many in the 
industry have so far been unwilling to invest in the basic security 
measures that would render them less vulnerable to attack.
    These varied and complex challenges should make it clear that there 
will be no simple solution to the growing problem of piracy off the 
Somali coast. That said, a few statistics help keep the problem of 
Somali piracy in perspective. Each year, more than 33,000 vessels 
transit the Gulf of Aden, and in 2008, there were 122 attempted pirate 
attacks, of which only 42 were successful. In other words: pirates 
attack less than one half of 1 percent of shipping in the Gulf of Aden, 
and their attacks have succeeded only about a third of the time.
    That does not mean that we can ignore piracy in the region, of 
course. To safeguard the principles of maritime freedom and the lives 
of innocent mariners, the U.S. government is taking action to address 
the problem of piracy--particularly at a moment when attacks have been 
increasing, both in numbers and in ambition.
    At the moment, Somali piracy appears to be motivated solely by 
money, not by ideology, and we do not see meaningful links between 
pirates and organized violent extremist groups, inside or outside 
Somalia. Nonetheless, we know that in other contexts, narcotics 
production and other forms of criminal activity are sometimes ``taxed'' 
by extremist groups, as in Afghanistan. We need to ensure that piracy 
does not evolve into a funding source for violent extremist 
organizations.
    The relatively low incidence of pirate attacks has implications for 
how we allocate military assets. As the members of this committee know, 
the Department of Defense has urgent priorities around the globe. We 
face two ongoing wars in Iraq and Afghanistan, and we continue multi-
faceted overseas contingency operations against violent extremism. In 
the Horn of Africa, our existing and planned counterterrorism 
activities remain vital to that global struggle against extremism. Many 
of resources most in demand for counter-piracy activities, such as 
intelligence, surveillance and reconnaissance assets, are the same 
assets that are urgently required elsewhere.
    While it is important that we find effective ways to address the 
growing problem of piracy--with particular attention to preventing 
piracy from becoming a funding source for violent extremist groups--we 
need to ensure that effectively addressing piracy does not come at the 
expense of other ongoing, critical military commitments.
    We believe that this can be done. Already, we are taking effective 
steps to address the four challenges outlined above. Through the 
creation of Combined Task Force 151 (CTF-151), which focuses 
exclusively on counterpiracy, we are actively seeking engagement from 
other states, and we are pleased that so many states are beginning to 
play a role in joint counterpiracy efforts. Denmark, Singapore, South 
Korea, Turkey, and the United Kingdom have joined our efforts; others 
have indicated that they will do so as well. In fact, Turkey has taken 
command over CTF-151 aboard USS Gettysburg. Canada, France, Germany, 
Greece, Italy, Japan, Malaysia, Netherlands, the People's Republic of 
China, the Russian Federation, Saudi Arabia, Yemen and others have all 
contributed forces--either individually, or through NATO or the 
European Union.
    Although not without challenges, coordination between allies and 
the merchant ships that transit the area has been impressive, with 
outstanding communications between industry and the EU's Maritime 
Security Center for the Horn of Africa, which is based in Northwood, 
United Kingdom. The EU's Maritime Security Center plays a key role in 
relaying critical information from merchant ships to operational 
forces. Moreover, the international array of forces and their ability 
to work together has been impressive, as demonstrated by the Combined 
Maritime Forces monthly Shared Awareness and Deconfliction meetings in 
Bahrain. These involve over 20 nations and ensure that our 
international responses will be as effective as possible.
    Most important in the short run, we are actively working with 
merchant shipping lines to help ensure that all vessels take 
appropriate measures to protect themselves from pirates. Here again, 
some statistics are instructive: when we look at patterns in pirate 
attacks in the region, we see that of the unsuccessful pirate attacks, 
a full 78 percent were thwarted simply by effective action taken by the 
crews of the ships under attack. Only in 22 percent of unsuccessful 
attacks were military or law enforcement interventions related to the 
positive outcome.
    This highlights the fact that the single most effective short-term 
response to piracy will be working with merchant shipping lines to 
ensure that vessels in the region take appropriate security measures 
themselves. In so vast an expanse of ocean, and with so many other 
critical national security priorities, it is not possible for our 
military to prevent or intervene in each and every pirate attack. But 
with appropriate on-board security measures in place, the vast majority 
of pirate attacks can be thwarted without any need for military 
intervention.
    Effective merchant ship security includes both passive and active 
defense measures, and we are committed to working with commercial 
carriers who operate in the region to undertake vulnerability 
assessments and disseminate best practices. Effective passive security 
measures can include developing a comprehensive security plan; 
including risk assessment; the removal of external ladders; posting 
lookouts at all times; limiting lighting; rigging barriers (such as 
barbed wire and fencing) in low freeboard areas; varying routes taken 
and avoiding high-risk areas when possible; securing hatches to limit 
access to crew and control spaces; creating ``safe rooms'' and 
maintaining good communications with maritime security authorities.
    Active defense measures can range from rigging fire hoses to repel 
boarders to maintaining professional civilian armed security teams on 
board. While there is some concern within the shipping industry about 
armed security teams, we are working with industry representatives in 
conjunction with other agencies to explore how contracted security 
teams can be a useful and viable option for highly vulnerable ships, 
such as low-freeboard and slow vessels.
    As part of this effort, it may be useful to develop incentives that 
will help encourage merchant ships to invest in security measures. 
These could range from tax credits to reduced insurance rates for ships 
with enhanced security. Ultimately, it may be appropriate to mandate 
some of these actions, beginning with passive self-defense. Regardless, 
we will continue to develop partnerships within the shipping industry 
to make sure that information on best practices is disseminated widely 
and that vessels have the information they need to adequately assess 
and mitigate risk.
    We will continue to be prepared to respond as appropriate when 
U.S.-flagged vessels and U.S. citizens are involved. But this is a 
context in which our actions will be most effective when private 
partners take proactive measures themselves. Most pirates are 
opportunistic criminals: whenever possible, they will focus on the easy 
targets, and avoid the difficult targets. Our main task is to assist 
commercial carriers in making their ships hard targets.
    We will also continue to focus on longer-term efforts to prevent 
and punish piracy in the region. We will continue to work with allies 
and regional states to develop their capacity to patrol the seas and 
protect their own shipping, and we will encourage them to fill any gaps 
in their legislative frameworks, so that they can prosecute pirates in 
their own domestic systems. We will also work with regional states to 
increase prosecutorial and judicial capacity to try pirates, since 
effective and fair prosecutions are part of creating a long-term 
deterrent. And we will work when possible with local authorities in 
Somalia to address the on-shore components of piracy, tracking the on 
shore-investors and safe-havens that enable piracy on the high seas. 
Finally, the United States continues to work with the international 
community to better address the root causes of piracy that arise out of 
poverty and instability in Somalia.
    Many of these efforts dovetail with our existing development and 
counterterrorism goals in the region. While none of them will be quick 
fixes, over the long term, increasing local government and law 
enforcement capacity and fostering sustainable economic development are 
all part of reducing the threat of violent extremism, as well as 
reducing the threat of piracy.
    Mr. Chairman and members of the committee, we recognize that the 
problem of piracy is not just a problem of Somalia. In recent years, 
pirate activity has also occurred in the Caribbean, the South China 
Sea, and other places around the globe. Although the complete 
elimination of piracy on the high seas would be as difficult to achieve 
as the complete elimination of all robberies and assaults, we believe 
that we can, and must, reduce the likelihood of successful pirate 
attacks through deterrence, disruption, interdiction, and punishment. 
This will require coordinated international action and a variety of 
innovative public-private partnership, but we are confident that 
progress can be made. Congress can help facilitate our efforts by 
encouraging and incentivizing the commercial shipping industry and 
their insurers to take appropriate passive and active measures to 
protect their ships.
    Thank you for offering us this opportunity to testify, and we 
welcome your questions and comments.

    Chairman Levin. Thank you very much, Secretary Flournoy.
    Admiral Winnefeld.

 STATEMENT OF VADM JAMES A. WINNEFELD, JR., USN, DIRECTOR FOR 
       STRATEGIC PLANS AND POLICY, JOINT CHIEFS OF STAFF

    Admiral Winnefeld. Good morning, sir, and good morning, 
Senator Inhofe. Thank you for the opportunity to speak before 
the committee on the subject of piracy in the coastal waters of 
Somalia, and I will try not to be redundant with Under 
Secretary Flournoy's statement.
    But, building on that statement, I'd like to give you a 
sense of structure regarding how we synchronize our efforts 
along military, civilian, and industry and legal lines. Simply 
stated, we think of this problem in three layers, in increasing 
order of complexity. First would be anti-piracy, which would 
include deterrence and defense. Second would be counter-piracy, 
which would be disruption, interdiction, and prosecution. Then 
finally would be influencing the conditions ashore in Somalia 
that support piracy, to which Under Secretary Flournoy alluded 
very clearly.
    Our efforts in anti-piracy include providing the best 
possible information exchange with vessels and industry 
entities before those vessels sail to the Gulf of Aden or to 
the Somali Basin, and also providing them with the best 
possible information while they're there. We also encourage, as 
Under Secretary Flournoy mentioned, ships to employ both 
passive and active defenses, which are essentially the most 
effective way of preventing this thing. We influence the 
information environment as best we can. We do what we can to 
provide a deterrent presence in a very large area with the 
ships that we have. As a last resort, we sometimes provide 
direct support to individual ships.
    The majority of ships, notably those with high access 
points and reasonable rates of speed, are able to defend 
themselves quite well without any kind of assistance using the 
relatively simple passive measures that we've discussed. For 
ships that are more vulnerable, steering well clear of the area 
is probably the best defense, but there are also other measures 
that those ships can take that would reduce their 
vulnerability.
    Our efforts in counter-piracy involve hunting pirates 
wherever we can, being prepared to conduct hostage rescue when 
our interests, capabilities, and allowable risk intersect, and 
planning for potential operations ashore should they become 
necessary.
    As Secretary Gates and Admiral Mullen have both stated, the 
challenges associated with hunting pirates in over a million 
square miles of ocean area, about four times the size of Texas, 
is extremely challenging. Moreover, as Secretary Flournoy has 
mentioned, some nation has to be willing to accept the pirates 
that we might apprehend in the course of hunting them. Our 
international partners, the State Department, and other members 
of the inter-agency have played an essential role in engaging 
Kenya and other nations in facilitating the prosecution of 
pirates, which is absolutely essential to getting at the 
counter-piracy aspects of this. We do stand at risk of 
overwhelming Kenya's limited capacity in this regard and we do 
definitely seek other nations who are willing to help with the 
prosecutorial aspects of this.
    I won't go into detail. At the moment I'm happy to answer 
questions regarding the challenges associated with forcibly 
regaining control of ships or with operations ashore, but these 
challenges are substantial and they include the potential for 
unintended consequences and the fact that anti-piracy, no 
matter how it is done, is very asset-intensive, including ISR 
assets that are very much in demand in our other ongoing 
operations, including two wars.
    Regarding the third dimension, changing conditions ashore 
in Somalia, I think we would all agree that this is the 
fundamental end state that would eliminate piracy in the region 
and I won't repeat Under Secretary Flournoy's clear remarks in 
that regard.
    So while our instincts and our tradition as a maritime 
nation lead us to want to quickly eliminate this threat, piracy 
off the Horn of Africa is not a problem we will cure overnight. 
Nor is there a single solution. However, by exposing piracy to 
the broadest range of solutions, including the efforts of our 
many partner nations, our goal is to make continued progress 
towards reducing the number of ships that are willing to become 
pirated ships and reducing the number of Somalis who are 
willing to become pirates.
    Thank you very much to the members of the committee and for 
your ongoing support to our men and women in uniform, and I 
look forward to your questions and comments on piracy.
    Chairman Levin. Thank you so much, Admiral.
    Ambassador Mull.

STATEMENT OF HON. STEPHEN D. MULL, SENIOR ADVISOR TO THE UNDER 
            SECRETARY OF STATE FOR POLITICAL AFFAIRS

    Ambassador Mull. Thank you very much, Mr. Chairman and 
Senator Inhofe. I too share everything that Under Secretary 
Flournoy had to say. There's a broad range of consensus within 
the interagency of the administration on how we work together 
in approaching this problem.
    In the interest of your time, I would ask that my testimony 
be submitted for the record and I'd be happy to summarize it 
very briefly.
    As you and Senator Inhofe mentioned, the funny thing about 
piracy is it features a convergence of our first foreign 
interest as a country at the very beginning of our Nation's 
history, freedom of the seas, with the very real 21st century 
threat of asymmetric security threats. This is all through the 
prism of needing to keep energy and humanitarian supplies 
flowing simultaneously through one of the most destitute, yet 
strategically important, corners of the world.
    Our strategic goals in fighting this problem include 
restoring freedom of the seas to that area and doing that 
through stronger international cooperation, which is going to 
be absolutely essential to success; and then, longer term, 
building on the improved international cooperation to create a 
longer lasting maritime security regime in the region. We have 
approached these strategic goals with a number of tactics, all 
of which have been formulated within a whole-of-government 
approach within the administration and also very closely with 
our international partners.
    First, we've worked very aggressively within the United 
Nations (U.N.) Security Council to pass a number of Security 
Council resolutions giving us additional authority to undertake 
military actions against pirates in the region. Most recently, 
in December we passed U.N. Security Council Resolution 1851 
with a unanimous vote, giving us those authorities to do so.
    Second, the United States took the lead in forming an 
international contact group to combat piracy, composed of key 
states in the region, as well as key international contributors 
to this effort. This group has now grown to feature more than 
30 nations that participate in this and 6 international 
organizations which also contribute. Working with our military 
partners, we've established a zone, a maritime security 
protective area, which can be more systematically patrolled by 
contributing militaries. We have persuaded our international 
partners to contribute and to devote more military assets to 
this undertaking. We have worked with the government of Kenya 
and are currently working with other governments in the region 
to take on more responsibility for prosecuting the pirates that 
we apprehend. And of course, we ourselves have shouldered our 
share of the burden by bringing to New York the surviving 
pirate from the attack on the Alabama to prosecute him.
    As Under Secretary Flournoy and Admiral Winnefeld 
mentioned, we are also working very closely with industry and 
insurers to make sure that they are full partners in adopting 
the kind of self-defense measures that are going to be 
absolutely necessary for our efforts to succeed. More broadly, 
as the Senators have mentioned we continue our efforts to work 
for a resolution of the political crisis in Somalia, which of 
course is the root cause for all of this.
    We've had some success in our efforts to adopt these 
measures. There have been 17 successful interdictions of 
pirates in the region so far in 2009. That's compared to only 
six interdictions in all of 2008. There's been a significant 
drop in the success rate of piracy attacks, as Under Secretary 
Flournoy mentioned.
    But there are obvious challenges: the wide swath of sea 
that needs to be patrolled; and the differing standards and 
levels of prosecution that all of the participating States in 
these efforts apply to the question of arresting and 
prosecuting pirates.
    Nevertheless, despite these successes, there has been an 
uptick in the gross number of piracy attacks. Secretary Clinton 
a few weeks ago asked that we do more in response to this 
upsurge, and this week we are convening a meeting of all the 
major military contributors to this effort in London. That will 
be followed by a full meeting of the contact group later this 
month at the U.N. in New York.
    At these meetings we're pursuing a number of goals. First, 
we'd like to get more forces on the sea to help pick up 
patrolling duties. We want a more unified approach in terms of 
what to do with pirates once we apprehend them and to get more 
of a commitment of victim states to take their share of the 
responsibility for prosecuting the pirates and bringing them to 
justice, so that the burden of this is not just on countries 
like Kenya, which have already stepped up to the plate.
    We are also working very closely with the Treasury 
Department to examine what we might do to stop the flow of 
pirate assets. We will address this, and we will have a 
proposal for our partners in the contact group, later this 
month.
    We will also press our partners in the contact group to 
play a more aggressive role in stopping the payment of ransoms 
and otherwise facilitating the flow of money to pirates, 
because that in fact is what is enabling the pirates to get 
more arms and to take on even greater levels of attack.
    At the same time we are engaging, we are intensifying our 
efforts to support international efforts to enable the African 
Union peacekeeping forces to step up to the plate and play a 
stronger role in stabilizing the situation in Somalia, even as 
we work with our international partners to increase the amount 
of aid to the struggling government there.
    It's a difficult problem, but with the clear international 
authorities that we already have and the consensus that's 
already there in the international community to do something, 
I'm optimistic that we're going to continue to make progress. 
But it's going to be a difficult road that we're going to be 
working on very carefully in the weeks ahead.
    I'll stop there. Thank you very much and I look forward to 
taking your questions.
    [The prepared statement of Ambassador Mull follows:]
            Prepared Statement by Ambassador Stephen D. Mull
    Chairman Levin, Ranking Member McCain, and members of the 
committee: Thank you for inviting me today to provide an overview of 
our initiative to suppress piracy off the coast of Somalia.
    Over the past year, concern has grown over the threat that piracy 
poses to international security, to the global economy, and as we have 
seen recently, to U.S. citizens and commercial interests. In addition 
to the Maersk Alabama incident, attacks on ships in this region have 
disrupted both U.S.--and U.S.-supported United Nations (U.N.) World 
Food Program transports delivering aid to some of the world's most 
vulnerable populations; placed innocent mariners from countries across 
the globe in immediate danger; posed environmental threats as pirated 
ships may be damaged or run aground; and jeopardized commercial 
shipping interests. The vast majority of Somali pirates are motivated 
by money, not ideology, and the continued payment of ransoms fuels this 
affront to human security and dignity.
    Fighting piracy is an important element of our strategic objectives 
in Somalia, which focus on helping Somalia regain political and 
economic stability, eliminating the threat of terrorism, and responding 
to the humanitarian needs of the Somali people. American leadership in 
efforts to combat piracy off the coast of Somalia is entirely 
consistent with our traditional interest in ensuring freedom of 
navigation and safety of the seas, which have long been cornerstones of 
U.S. foreign policy and which is now an urgent priority for Secretary 
of State Clinton. Furthermore, beyond protecting our citizens and 
ensuring the security of maritime trade and access to the critical 
energy resources upon which our national and the global economies 
depend, collaboration with both traditional and nontraditional partners 
on counterpiracy efforts in this region offers strategic opportunities 
to strengthen existing alliances and coalitions and to create new ones. 
We hope to be able to leverage our collaborative counter-piracy efforts 
into increased security cooperation in the maritime domain with 
nontraditional partners such as China, India, and Russia, and bring 
added focus to regional capacity-building programs.
    The United States has a multifaceted strategy to suppress piracy 
that many Departments and agencies are working hard to implement, and 
the Department of State is working with interagency partners to 
integrate our maritime and land-based efforts in Somalia into a 
comprehensive strategy. Our strategic goals are to protect shipping, 
particularly Americans and U.S.-linked ships; capitalize on 
international awareness and mobilize cooperation to address the 
problem; and create a more permanent maritime security arrangement in 
the region. Significant factors affect our pursuit of these goals, 
including the enormous difficulties inherent in patrolling, or even 
monitoring through technical means, such a huge expanse of open sea; 
and, of course, the broader problem of Somalia itself. Legal challenges 
also exist, including inadequate domestic legal authorities in some 
states as well as a lack of willingness on the part of some to 
prosecute suspected pirates.
    In light of these complexities, we seek to use every means at our 
disposal to pursue our goals. We have worked effectively with the 
United Nations to obtain Security Council resolutions that maximize our 
ability to take appropriate action. We created and will continue to 
work through the Contact Group for Piracy off the coast of Somalia 
(Contact Group) to internationalize the problem and its solutions. We 
actively support the North Atlantic Treaty Organization and European 
Union counterpiracy missions, and the U.S. Navy created Combined Task 
Force 151 to focus U.S. naval forces on counterpiracy efforts. We 
secured a formal arrangement with Kenya to accept pirates for 
prosecution, and our Department of Justice has asserted America's 
willingness to prosecute when our people and interests have been 
attacked. We continue to work with and through our interagency partners 
to improve U.S. and international commercial shipping self-protection 
capability. And we are working with United Nations agencies like the 
International Maritime Organization and the U.N. Office on Drugs and 
Crime, as well as partners in the region, to support the capacity 
development of their coastal security forces.
    Concerned by the recent upsurge in pirate activity, Secretary 
Clinton has directed us to do more. We are seeking emergency 
consultations with Contact Group partners and are finding notable 
receptivity to our outreach. Through this venue, we will intensify our 
efforts to persuade victim states to prosecute pirates. We are working 
both internally and with other countries to develop the ability to deny 
pirates the benefits of concessions, including tracking and freezing of 
their ill-gotten gains. We are working to expand the regional capacity 
to prosecute and incarcerate pirates, both by helping to fund 
multilateral programs to build judicial capacity and by direct 
unilateral assistance to countries who have expressed a willingness to 
adapt their laws and processes to accommodate prosecution and 
detention. We will continue to press the importance of a no concessions 
policy when dealing with pirates. We are working in political-military 
channels to ensure that military counterpiracy operations are as robust 
and well-coordinated as possible, and we are intensifying our efforts 
to support Somali assistance processes. We are also exploring 
strategies to actively seek the release of captive ships and hostages, 
some of whom have been held for months.
    We've had some success. Naval patrol interventions are increasingly 
active; international naval forces have intervened to stop dozens of 
attempted piratical attacks in the past nine months, and we're seeing a 
significant upswing in the number of countries willing to commit assets 
to the effort. On the other hand, we face political and legal obstacles 
to a shared understanding of the imperative for prosecution in and by 
victim states, and significant logistical issues in prosecution by 
countries who actually have the will to prosecute pirates. Regional 
states face challenges with regard to detention and prosecution. 
Tracking and freezing pirate ransoms is even harder than tracking 
terrorist finances, given that pirates are most often paid off in the 
form of air-dropped bags of cash. The shipping industry--as well as 
some of our partners--has vigorous objections to, and few incentives 
for, arming their ships and crews. We need to make progress in these 
areas.
    Fortunately, we sense a growing international consensus to do more, 
and we'll keep working at it. Ultimately, we hope these cooperative 
efforts will result in a new maritime security regime that will feature 
enhanced regional capacity and cooperation. We are considering now what 
such a regime would include, but anticipate that it would entail 
voluntary multilateral cooperation and collaboration that would not 
require any new U.N. mandate. For instance, we envision a maritime 
security sector assistance framework building on programs already in 
place to provide, among other capacity building efforts, training and 
equipment to regional coast guards, supported by a consortium of donor 
and regional states; international coastal and naval exercises to 
improve interoperability; and pooling of surveillance assets and 
information sharing to develop a shared maritime security picture. The 
regional approach was highly successful in combating piracy in straits 
of Malacca, and although the situation off the coast of Somalia is 
quite different because of the incapacity of the Somali government, the 
need for a coordinated regional approach is apparent. In fact, it is 
urgent, and we would like to see such an approach applied to other 
maritime security challenges, including smuggling, trafficking in 
persons, and disaster response.
    As Secretary Clinton emphasized in her recent public statement, we 
recognize that there will be no long-term solution to piracy in the 
region unless progress is made in addressing the larger political, 
security and governance challenges facing Somalia, its government and 
its people. We also recognize that sustainable change in Somalia 
requires a political solution that is authored and implemented by 
Somalis themselves and not by outsiders. In this regard, the United 
States continues to support the U.N.-led Djibouti peace process, which 
has facilitated important progress on the political and security fronts 
in recent months, and to work with a broad international group of 
donors. The United States also remains committed to supporting the 
Somali security sector and the African Union Mission in Somalia 
(AMISOM). Secretary Clinton dispatched a high-level envoy, Acting 
Assistant Secretary Phillip Carter, to the Donors' Conference on 
Somalia in Support to the Somali Security Institutions and AMISOM, 
where we will reaffirm our commitment to building security and 
governance in Somalia.
    We are also working directly with the Transitional Federal 
Government of Somalia and regional authorities to develop both 
incentives to actively suppress pirate activities and disincentives to 
support for this malignant enterprise that threatens Somali and 
regional security and sustainable development. We are exploring the 
feasibility of tracking and freezing pirates' assets, and encouraging 
implementation of the U.N. sanctions already in place. None of this is 
easy, but it is all worth doing for the sake of the security and 
prosperity of Americans and the international community.
    Mr. Chairman, Ranking Member McCain, and members of the committee: 
I want to thank you for this opportunity to provide an overview of our 
efforts. I am happy to answer any questions you may have.

    Chairman Levin. Thank you very much, Ambassador. All the 
statements will be made part of the record.
    Mr. Caponiti.

  STATEMENT OF JAMES A. CAPONITI, ACTING DEPUTY ADMINISTRATOR/
        ASSISTANT ADMINISTRATOR, MARITIME ADMINISTRATION

    Mr. Caponiti. Good morning. Thank you, Mr. Chairman, Mr. 
Inhofe, and members of the committee. I'm pleased to have the 
opportunity to appear before you today to discuss the ongoing 
piracy problem in the waters off of Somalia, and I've submitted 
a more detailed statement for the record.
    Throughout 2008 and continuing into 2009, the global piracy 
situation has grown substantially worse, particularly in an 
ever-expanding area off of the coast of Somalia, where more 
than 20,000 vessels transit the region each year. Although the 
impact of piracy is significant, the American public has only 
recently become more aware of the situation with the attacks on 
the two American vessels, the Maersk Alabama and the Liberty 
Sun, both of which were carrying food aid for Somalia.
    Acts of piracy threaten freedom of navigation, and the flow 
of commerce off the Horn of Africa, and piracy disrupts the 
flow of critical humanitarian supplies. The vessels most 
vulnerable to piracy attacks are those traveling slowly, with 
limited speed capabilities, and with low freeboard, that is to 
say, there is not much height between the water and the deck 
level, what we call low and slow.
    Currently, 18 commercial ships are being held for ransom by 
pirates in Somalia along with more than 300 crew members. Those 
are estimates, sir.
    The Gulf of Aden, which links the Mediterranean Sea and the 
Suez Canal with the Indian Ocean, is one of the busiest choking 
points in the world. An average of more than 50 commercial 
vessels transit the Gulf daily and this includes on average 
about one U.S. commercial vessel transit. Also, due to a 
worldwide crewing shortage and the weak dollar, U.S. citizen 
mariners have been serving on foreign flag ships at an 
increasing rate, though we don't have accurate visibility on 
numbers.
    Many U.S. flag vessels transiting the region carry DOD 
cargo bound for Operations Iraqi and Enduring Freedom, and U.S. 
flag vessels transiting the region also carry humanitarian 
cargoes destined for Somalia. This is a particular issue 
because the food aid cargoes themselves are in the low and slow 
variety in most instances, so they are very vulnerable.
    It has been our Nation's longstanding policy to support 
freedom of the seas and the United States has been a leader in 
promoting international action to combat the current piracy 
crisis. Secretary Flournoy went through a lot of detail on the 
government's initiatives on this, including the standing up of 
the contact group. The contact group itself is established with 
four working groups, which are providing recommendations on a 
variety of issues. The United States has the lead for working 
group number 3, which focuses on shipping self-awareness and 
interaction with industry, and MARAD has been co-leading that 
effort of this working group in close collaboration with the 
U.S. Coast Guard.
    MARAD is uniquely qualified to assist with working group 3 
because of the agency's specialized knowledge that we get 
through the operation of our own mobility sealift vessels. We 
have established relationships with U.S. and international 
shipping, the maritime unions, the marine insurance community, 
the global maritime industry associations, and we have 
oversight over government cargoes transiting the Somali region 
under our preference cargo programs.
    MARAD also plays a key role in the training of merchant 
mariners through the development of International Maritime 
Organization maritime security courses and workforce 
development. Efforts are also being made to include anti-piracy 
and security training in the academic programs at the U.S. 
Merchant Marine Academy, which we operate, and the State 
maritime schools, which we assist.
    In addition, MARAD provides operational advice to U.S. flag 
owners and operators, including counter-piracy measures and 
awareness, on a regular basis through MARAD advisories, a 
comprehensive and frequently updated web site, and MARAD's 
electronic MARVIEW system, which is available to registered 
users.
    Since the fall of 2008, MARAD has been at the forefront of 
outreach and interaction with the industry and other Federal 
agencies by hosting more than a dozen meetings in both national 
and international forums to help shape the best management 
practices, to counter piracy, and to share industry concerns. 
In early 2008, MARAD continued to intensify its efforts in the 
fight against piracy and to further improve coordination 
between industry and the various navies participating in the 
Gulf of Aden, and to provide voluntary assessments of security 
on U.S. vessels through a cooperative program that we have with 
the Military Sealift Command, which is assisted by the Naval 
Criminal Investigation Service; and to further establish the 
best management practices to prevent piracy and to bring 
industry's perspectives and ideas to the inter-agency.
    Also this year, MARAD led the U.S. delegation of working 
group number 3 at the plenary of the contact group on piracy 
off the coast of Somalia, and we presented the international 
industry development the best management practices to counter 
piracy. MARAD also supported the dissemination of counter-
piracy guidance and remains engaged with international 
organizations and experts as the development and implementation 
of BMPs continues to evolve.
    We've made enhancements to our electronic information 
system that I mentioned before, MARVIEW, and we've contributed 
to the maritime safety and security information system for the 
purpose of providing more efficient piracy-related data and 
vessel tracking to the National Maritime Intelligence Center.
    Given limited military resources available to fully protect 
commercial shipping in the waters off Somalia, there is an 
increasing focus on the issue of shipping companies hiring 
private armed security personnel to protect their vessels while 
transiting the waters off Somalia. This may be a solution that 
all vulnerable ships need to look at. The high and fast ships 
probably don't need to worry as much about this.
    But there are many complicated factors which must be 
addressed before the industry as a whole can adopt this 
recommendation about armed security teams. The issues to be 
considered are: the development of appropriate rules, 
regulations, and standards for armed security providers; the 
existence of port state restrictions on arms aboard merchant 
vessels entering many ports in the world; potential escalation 
of violence due to the presence of arms on board commercial 
vessels; issues of safety for the crew and for the vessel; 
rules on the use of force; design constraints of vessels to 
carry additional personnel; union contract issues; insurance, 
liability, and legal constraints; as well as many other 
factors.
    It is clear that combatting international piracy is no 
small effort, evidenced by its long history. Much work has 
already taken place, as you've heard from all the witnesses 
today, but much remains to be done before international piracy 
can be eliminated. Due to its unique and positive relationship 
with U.S. flag and international vessel owners, MARAD has 
maintained a vital role in the development of U.S. anti-piracy 
policy.
    Mr. Chairman, the Department of Transportation and MARAD 
stand ready to assist in any way possible to address piracy and 
any other issue that threatens the National and economic 
security of the United States and our allies.
    I want to thank the members of this committee and Chairman 
Levin for your leadership in holding this hearing today. I will 
be happy to answer any questions you might have. Thank you.
    [The prepared statement of Mr. Caponiti follows:]
                  Prepared Statement by James Caponiti
    Good morning, Chairman Levin, Ranking Member McCain, and members of 
the committee. I am pleased to have the opportunity to appear before 
you today to discuss the serious threat stemming from the ongoing 
piracy problem in the waters off of Somalia. Throughout 2008 and 
continuing into 2009, the global piracy situation has grown 
substantially worse--particularly in an ever expanding area off the 
coasts of Somalia, where more than 20,000 vessels transit the region 
each year. Although the impact of piracy has been very significant, the 
American public has only recently been made more aware of the situation 
with the attacks on two American flag vessels, the Maersk Alabama and 
the Liberty Sun--both of which were carrying food aid for Somalia.
    Acts of piracy threaten freedom of navigation and the flow of 
commerce. Off the Horn of Africa, piracy disrupts the flow of critical 
humanitarian supplies. Pirates frequently demand millions of dollars in 
ransom for the release of hostages, ships, and cargoes. Press reports 
indicate that in 2008, pirates received an estimated $30 million in 
ransom for the release of sea-jacked vessels. In 2008, 42 vessels were 
seized by pirates operating off the coast of Somalia. Globally, 889 
mariners were held hostage by pirates (815 in Somalia) as part of 
ransom demands. The International Maritime Bureau (IMB) reported that 
in 2008, globally, 11 mariners were murdered by pirates and another 21 
are missing and presumed dead. The IMB also reported that during the 
same period, off the Horn of Africa, 4 mariners were killed and 14 are 
missing and presumed dead.
    The vessels most vulnerable to piracy attacks are those traveling 
slowly (with limited speed capabilities) and with low freeboard--that 
is to say, there is not much height between the water and the deck 
level. At any given time during the past 9 months, more than a dozen 
vessels and their crews have been held hostage off the Somali coast. 
Currently, 18 commercial ships are being held for ransom by pirates in 
Somalia, along with more than 300 crewmembers. One reason for the 
success of seajackings and ransom taking is that the government in 
Somalia is ineffective and this has enabled pirates to operate with 
virtual impunity. Further, there have been press reports opining that 
some local officials are on the pirates' payroll.
    The Gulf of Aden, which links the Mediterranean Sea and the Suez 
Canal with the Indian Ocean, is one of the busiest shipping choke 
points in the world. An average of 50 commercial vessels transit the 
Gulf daily. Many of these vessels are potential targets. More than 3.3 
million barrels of oil pass through the Gulf of Aden every day. This 
represents 4 percent of the world's total daily production and 12 
percent of all the oil transported by water daily around the world by 
sea. In addition, numerous other cargoes and container freight pass 
through the Gulf daily.
    Approximately 80 percent of the vessels transiting the Gulf of Aden 
carry cargo destined to and from Europe, East Africa, South Asia, and 
the Far East. However, a significant portion of cargoes is also 
destined to and from the United States. In addition, U.S. citizens 
serve as crew or are passengers on vessels transiting the area.
    On average, at least one U.S. commercial vessel transits the area 
each day. Many of these U.S.-flag vessels carry Department of Defense 
cargo bound for Operations Iraqi and Enduring Freedom. U.S.-flag 
vessels transiting the region also carry humanitarian cargoes generated 
by the U.S. Agency for International Development (USAID) or 
international organizations to the Horn of Africa, including Djibouti, 
Somalia, and other countries in East Africa or South Asia.
    As mentioned, seajackings off the Horn of Africa significantly 
increased in 2008 and 2009, with more than 150 attacks and 55 
successful seajackings. Although only one-third of 1 percent of all the 
vessels transiting the Gulf of Aden are seajacked, the cost and 
disruption to the flow of commerce overall is significant. There is 
also a serious risk of an environmental disaster should a vessel be 
damaged or sunk during a hostile attack. Press reports indicate that 
merchant mariners have been killed or are presumed dead and that 
hundreds, including American mariners, have been traumatized by being 
attacked and held hostage, and even by the uncertainties generated by 
the growing instability of the region.
    Ship owners and operators are also negatively impacted by rising 
daily operating costs due to increased insurance premiums and 
operational delays caused by longer transit times or diversions to 
avoid the area. In many cases, there are additional costs related to 
the higher wages which must be paid to crew transiting the higher risk 
area. Both the shipper and the consumer are ultimately impacted due to 
these higher operating costs and the delays in the supply chain. This 
is particularly true where vessels are diverted around the Cape of Good 
Hope in an effort to avoid the Gulf of Aden altogether, which also 
increases fuel consumption and the carbon footprint of marine 
transportation. Higher shipping costs also raise the costs of 
commodities for local populations.
    The United States has been a leader in promoting collaborative 
international action to combat the current piracy crisis. It has been 
our Nation's long-standing policy to support freedom of the seas. In 
July 2008, the United States took a leadership role in the United 
Nations fight against piracy. This resulted in United Nations (U.N.) 
Security Council Resolution 1816 which authorized countries cooperating 
with the Transitional Federal Government (TFG) of Somalia, for which 
advance notification has been provided to the Secretary-General, to 
enter Somali territorial waters to repress piracy. This was followed by 
additional Security Council Resolutions 1838 and 1846 in the fall of 
2008. In December 2008, the United States drafted U.N. Security Council 
Resolution 1851 which authorizes countries cooperating with the TFG of 
Somalia to enter Somali territory to repress piracy. This resolution 
was adopted by the Security Council.
    U.N. Security Council Resolution 1851 also encouraged the 
establishment of an international cooperation mechanism--known now as 
the Contact Group on Piracy off the Coast of Somalia (CGPCS). The 
Contact Group for Piracy off the Coast of Somalia was created in New 
York City on January 14, 2009, and currently numbers 28 nations 
(Australia, Belgium, China, Denmark, Djibouti, Egypt, France, Germany, 
Greece, India, Italy, Japan, Kenya, Republic of Korea, The Netherlands, 
Norway, Oman, Portugal, Russia, Saudi Arabia, Somalia TFG, Sweden, 
Spain, Turkey, United Arab Emirates, United Kingdom, United States, 
Yemen), and 6 international organizations (African Union, Arab League, 
European Union, North Atlantic Treaty Organization, United Nations 
Secretariat and International Maritime Organization) with 7 additional 
countries (Canada, Cyprus, Liberia, Nigeria, Malaysia, Panama, 
Singapore) pending requests to participate. The Department of State 
represents the United States on the CGPCS. The CGPCS acts as a common 
point of contact between and among states, regional and international 
organizations on all aspects of combating piracy and armed robbery at 
sea off Somalia's coast. The CGPCS met in January at the United Nations 
in New York City and in Egypt in mid-March. The CGPCS will meet again 
in late May.
    The CGPCS established four working groups to provide 
recommendations to the CGPCS. Working Group #1 is addressing activities 
related to military and operational coordination and is chaired by the 
United Kingdom. Working Group #2 is addressing judicial aspects of 
piracy and is chaired by Denmark. The United States has the lead for 
Working Group #3, which focuses on shipping self awareness and 
interaction with industry. The Department of Transportation's Maritime 
Administration (MARAD) and the Coast Guard have been co-leading this 
Working Group. Working Group #4 is tasked with offering recommendations 
to improve diplomatic and public information efforts and is chaired by 
Egypt.
    The U.N. Security Council resolutions called for greater 
cooperation between governments and industry to reduce the incidence of 
piracy. In January 2009, former-Secretary of State Rice stated that, 
``Once a hostage situation develops, the stakes in military operations 
increase. Consequently, an important part of counter-piracy efforts 
must be measured in enhancing self-defense capabilities of commercial 
vessels, increasing the odds of success against pirates until warships 
arrive.'' This sentiment still holds true today, and we saw evidence of 
this in the seajacking of the Maersk Alabama.
    Because of its specialized knowledge, such as operation of our 
mobility sealift vessels, and established relationships with U.S. and 
international shipping, maritime unions, the marine insurance community 
and global maritime industry associations, MARAD has considerable 
experience in dealing with the diverse interests of the global maritime 
industry and is actively involved in the fight against piracy. We are 
perhaps unique among government agencies with regard to its interest in 
piracy issues and its ability to assist. MARAD operates a fleet of 
Ready Reserve Force (RRF) vessels which have transited the Gulf of Aden 
region in support of Operations Iraqi and Enduring Freedom (OIF/OEF). 
As OIF winds down, RRF vessels may be called upon to play a significant 
role again in support of the demobilization of forces, with a 
consequence of exposing the vessels and crews to threats from pirate 
attacks.
    Further, many vessels supported by MARAD's Maritime Security 
Program (MSP), participate in the Agency's Voluntary lntermodal Sealift 
Agreement (VISA) and transit the Gulf of Aden on a routine basis. The 
Maersk Alabama is one of the 60 vessels enrolled in the MSP. MARAD also 
oversees government cargoes transiting the region--particularly food 
aid and military cargoes that are carried mainly aboard U.S.-flag 
commercial vessels transiting the Gulf. Finally, as an interface 
between U.S. maritime labor and the Federal Government, we have great 
interest in protecting the welfare of U.S. mariners who sail aboard 
vessels in the region.
    MARAD provides operational advice to U.S.-flag owners and 
operators, including counterpiracy measures and awareness, on a regular 
basis through MARAD Advisories, through a comprehensive and frequently 
updated Web site, and through MARAD's electronic ``MARVIEW system which 
is available to registered users. We have also contributed to the 
Maritime Safety and Security Information System (MSSIS) for the 
purposes of providing more efficient piracy related data.
    MARAD also plays a key role in the training of merchant mariners 
through the development of International Maritime Organization (IMO) 
maritime security courses and workforce development. Working with the 
U.S. Coast Guard and IMO, Vessel Security Officer, Company Security 
Officer, and Facility Security Officer courses were developed by the 
U.S. Merchant Marine Academy. MARAD continues to certify maritime 
security training providers who meet the criteria established by the 
U.S. Coast Guard. To date, more than 50 training providers have been 
certified across the country. Efforts are also being made to include 
anti-piracy and security training in the academic programs at USMMA and 
the state maritime academies.
    In late December, the Department of State asked MARAD to assist 
with the CGPCS Industry Outreach Working Group. Since 2008, MARAD has 
met on numerous occasions with industry to help shape best management 
practices to counterpiracy and to share industry concerns with U.S. 
Government agencies. In late December, the National Security Council 
published an action plan, the National Strategy for ``Countering Piracy 
off the Horn of Africa: Partnership & Action Plan'' (CPAP). MARAD and 
the Department of Transportation were actively involved in developing 
this Plan, and MARAD posted the CPAP on its Web site for the benefit of 
industry.
    MARAD strongly supported the Military Sealift Command's proposal to 
create and implement ``Anti-Piracy Assessment Teams'' for commercial 
vessels. These teams consist of personnel from the Naval Criminal 
Investigative Service, and MARAD. On a voluntary basis, these teams 
board U.S.-flag vessels and offer recommendations on how to improve a 
vessel's physical defenses against piracy, and review security tactics, 
techniques and procedures. To date, a number of successful APAT vessel 
assessments and recommendations have been completed. We expect this 
process to be embraced by the international community for similar 
implementation.
    MARAD's continuing outreach to the maritime industry on the piracy 
issue has taken many forms. In addition to leading informal meetings 
and participating in international forums, MARAD has hosted several 
collaborative meetings with both the American and international 
maritime industry community and appropriate Federal agencies. For 
example, in October and November 2008, MARAD and the Department of 
State sponsored meetings with representatives from the maritime 
industry to specifically discuss piracy in the Gulf of Aden. 
Participants included company security officers from major U.S. flag 
carriers, including American President Lines (APL), Horizon Lines, 
Maersk, Intermarine, Interamerican Ocean Shipping, American Roll On/
Roll Off, Crowley, American Overseas Marine, and Ocean Shipholdings. 
Flag states with U.S.-owned vessels or with vessels serving strategic 
U.S. interests also participated, including representatives from 
Denmark, Marshall Islands, Liberia and Panama. The U.S. Navy's Maritime 
Liaison Office Bahrain and the United Kingdom's Maritime Transport 
Office were also included. Topics specifically addressed at these 
meetings were maneuvering and speed, illumination, communication, 
duress terminology, armed force protection, and self-defense devices 
which may be used to deter piracy.
    At the request of the maritime industry, MARAD facilitated 
extensive discussions on piracy with the Department of State, 
Department of Defense, Federal Bureau of Investigation, Transportation 
Security Administration, and the U.S. Coast Guard. In November 2008, 
MARAD participated in a public hearing hosted by the Coast Guard, 
focused on piracy initiatives being considered by the International 
Maritime Organization's Maritime Safety Committee. In December 2008, 
MARAD staff played an instrumental role in several other international 
planning events related to piracy. MARAD participated in the North 
Atlantic Treaty Organizaiton (NATO) Senior Civil Emergency Planning 
Committee (SCEPC) meeting held in Brussels, Belgium, which included 
piracy as an agenda item. MARAD chairs the NATO Planning Board on Ocean 
Shipping, which reports to the SCEPC.
    On December 2, 2008, MARAD hosted a Piracy Round Table meeting to 
discuss industry ``self-help'' and best practices to counter piracy. 
This meeting brought U.S. Government agencies together with the 
maritime industry to develop a mutual understanding of the problem and 
to develop best practices recommendations. Members of the industry 
included shipping associations, registries, carriers, marine insurance 
companies and representatives from the European Union. U.S. Government 
representatives included personnel from the Coast Guard; Department of 
State; Department of Defense, Office of Naval Intelligence; USAID; the 
National Security Council; and the Homeland Security Council. MARAD 
established an Anti-Piracy portal on the Agency's Web site, which is 
continuously updated. MARAD Advisories are posted on this site as are 
any recent developments and key contact information.
    MARAD hosted an international maritime industry Piracy Summit on 
December 11, 2008, with representatives from more than 50 industry 
associations, insurers, shipping companies, and labor to encourage them 
to further develop best management practices to combat piracy and to 
implement these strategies. Representatives from the Department of 
State; the Department of Homeland Security; Coast Guard; U.S. 
Transportation Command, Office of Naval Intelligence and Military 
Sealift Command participated in the Summit.
    In late December, MARAD joined the Department of State for 
discussions in London between representatives of European Union navies 
and maritime trade associations. The purpose of these discussions was 
to further develop and implement best management practices and to 
improve communication between maritime companies and military forces in 
the Gulf of Aden region. MARAD continues to meet with industry to 
finalize best management practices and share industry concerns with 
government agencies.
    In early 2009, MARAD intensified its efforts in the fight against 
piracy to further improve coordination between industry and the various 
navies participating in the Gulf of Aden, to provide voluntary 
assessments of security on U.S. vessels, and to further establish best 
management practices to prevent piracy and to bring industry's 
perspectives and ideas to the interagency process. Additional industry 
meetings, U.N. meetings, meetings hosted by the Baltic International 
Maritime Council and a counterpiracy meeting held in Dubai and hosted 
by the Maritime Liaison Office in Bahrain, have all pursued these 
objectives. Since maritime labor is uniquely vulnerable to pirate 
attacks, with mariners killed or held hostage as part of ransom 
demands, MARAD has included maritime labor in discussions and meetings, 
when feasible. The most recent MARAD industry and interagency meeting 
was held on April 23rd. MARAD led the U.S. delegation of Working Group 
#3 at the meeting of the Contact Group on Piracy off the Coast of 
Somalia in March of 2009, and presented the international industry 
developed (and MARAD facilitated) ``Best Management Practices'' to 
counter piracy. MARAD also supported the dissemination of counterpiracy 
guidance and better coordination between military and civilian 
operators in the region. The agency likewise provides U.S. flag 
projected schedules in the waters off Somalia to the National Maritime 
Intelligence Center and vessel tracking information on U.S. flag 
carriers to appropriate military authorities.
    Given limited military resources available to fully protect 
commercial shipping in the waters off Somalia, there is an increasing 
focus on the issue of shipping companies hiring private armed security 
personnel to protect their vessels while transiting the waters off 
Somalia. However, there are many complicated factors which must be 
addressed before the industry, as a whole, can adopt this 
recommendation. These include the need to develop appropriate standards 
for armed security providers, compliance with port state restrictions 
on arms aboard merchant vessels entering many ports in the world, and 
consideration of potential escalation of violence due to the presence 
of arms onboard commercial vessels, issues of safety for the crew and 
vessel, rules on the use of force, design constraints of vessels to 
carry additional personnel, union contract issues, insurance and 
liability issues and many other related factors.
    Most recently, MARAD has engaged the marine insurance industry to 
determine the effects of the piracy situation on insurance rates and to 
determine the effects on insurance if vessels carry armed security 
personnel aboard. We will continue to work with industry to determine 
whether, and to what extent, armed security might be used aboard 
commercial vessels in certain circumstances.
    Combating international piracy is no small effort. Much work has 
already taken place, but much remains to be done, before international 
piracy can be eliminated. Due to its unique and positive relationship 
with U.S.-flag and international vessel owners, MARAD has maintained a 
vital role in the development of U.S. anti-piracy policy. Additionally, 
through its training role, MARAD provides a valuable service to the 
commercial fleet. The Department of Transportation and the MARAD stand 
ready to assist in any way possible to address piracy and any other 
issue that threatens the national and economic security of the United 
States and our allies.
    I want to thank you for your leadership in holding this hearing 
today. I will be happy to answer any questions you might have.

    Chairman Levin. Thank you, Mr. Caponiti.
    Let's try a 7-minute first round. There's still a vote 
scheduled for 10:50 and we'll try to work through that.
    Secretary Flournoy, there's been reference to armed 
security personnel being on board. I guess that's still under 
consideration as to whether or not we make recommendations of 
that kind to the commercial shippers, particularly those who 
have vulnerable ships. Mr. Caponiti just laid out some of the 
issues that need to be resolved before a recommendation is made 
to the shipping industry.
    It seems like such a simple approach, just have some armed 
security personnel aboard. They have them at shopping centers. 
Why not on ships? I know insurance rates probably go down on 
shopping centers if you have armed security personnel to 
protect a shopping center. But, we expect that folks will 
provide their own security.
    Why should we not expect that ships that are vulnerable 
going into that area will provide their own security personnel? 
Why should that not now be an expectation, Secretary Flournoy?
    Ms. Flournoy. I do believe that we should expect private 
industry to take the utmost care to ensure that all of their 
ships going through the area are as secure as possible. I think 
there are many measures short of private armed security that 
can be taken, that have proved very effective in many cases.
    That said, if you have a particularly vulnerable ship, 
where you judge that other passive and active measures will not 
be enough to protect it, then I think this option of armed 
security teams is being put on the table. There is at least one 
U.S. company that has used those teams with a good record of 
success in actually turning away attacks. I think there's 
concern in the industry over some port restrictions. Some ports 
do not allow ships with armed security to go in, and I'm sure 
our colleague from the Department of Transportation may be able 
to elaborate on that.
    The one thing I would say from a DOD perspective is that, 
given all of the full range of demands on DOD personnel in this 
area and for other missions, I think DOD would be reluctant to 
get into a standard practice of providing military security for 
private shipping. I think we are very concerned about both the 
personnel and operational tempo implications and the costs of 
doing so, except in extraordinary cases.
    Chairman Levin. So I assume then that DOD is trying to 
press the commercial shipping industry to take actions to 
secure their own ships with private security measures; is that 
fair?
    Ms. Flournoy. Yes, we are working with our inter- agency 
partners to press both our own shipping industry and others to 
take as many active and passive measures as possible, and we 
believe that in most cases those will be adequate to deter or 
thwart successful attacks.
    Chairman Levin. That would include, if it were necessary, 
to have private security?
    Ms. Flournoy. At least to consider that as an option. I 
think we're deferring to industry to determine in what cases 
that makes sense and when it doesn't.
    Chairman Levin. Well, when we say defer to industry, that's 
fine, but we have our own naval ships that get involved in 
these efforts. We have to, I think at least, make a 
recommendation to industry.
    Ms. Flournoy. I think we are recommending that they take 
maximal security measures, particularly for the most vulnerable 
ships. I think exactly what that looks like will depend on the 
particulars of a given ship and its transit patterns and so 
forth. Possibly including armed security teams from the private 
sector.
    Chairman Levin. Is there going to be a formal 
recommendation on that issue that's coming from the task force 
or from this contact group, on that specific issue, whether or 
not we recommend private security guards for vulnerable ships 
in that area? Can we expect that there will be a recommendation 
on that specific point, Mr. Caponiti?
    Mr. Caponiti. Sir, this is one of the issues that is being 
discussed. It's the most controversial issue that we have right 
now.
    Chairman Levin. When will we know what the outcome of that 
discussion is? Can we expect that within a month there will be 
a resolution, yea or nay?
    Mr. Caponiti. I would doubt if we'll have it in a month. 
There's more opposition among the EU community than there is on 
the U.S. side. The issue of armed security is a very 
controversial one and it splits a couple of different ways. The 
U.S. industry is itself split on this.
    Chairman Levin. I want to move away from the industry just 
for a minute. I want to talk about the government.
    Mr. Caponiti. Yes, sir.
    Chairman Levin. Are we split?
    Mr. Caponiti. I don't believe so. I think we're looking at 
the range of issues. The Coast Guard in their maritime security 
directives is looking at this currently.
    Chairman Levin. Can we expect from our government a 
recommendation? I know it's complicated, but we all deal with 
complicated issues.
    Mr. Caponiti. I think there will be a recommendation from 
our Government about the standards that perhaps should exist if 
a carrier chooses to use it.
    Chairman Levin. ``If a carrier chooses to use it,'' is not 
a recommendation.
    Mr. Caponiti. I think we would recommend that low and slow 
ships in some waters use it.
    Chairman Levin. Use private security?
    Mr. Caponiti. We may get to that point where we recommend 
that certain ships of a certain size and speed use it in those 
waters. I think we will get to a point where we recommend it.
    Chairman Levin. When can we expect that there will be a 
recommendation one way or the other, whatever the 
recommendation is, without getting into what it should be?
    Mr. Caponiti. Sir, I would expect that we would probably be 
able to have that in a relatively short time. I don't want to 
speak for the Coast Guard. I know they are actively looking at 
this right now.
    Chairman Levin. Do we expect that within a month we could 
get a recommendation from our Government?
    Mr. Caponiti. I think it might be possible within a month, 
sir.
    Chairman Levin. Secretary Flournoy, are you going to be 
involved in that recommendation? Is DOD going to be involved in 
that recommendation?
    Ms. Flournoy. We will certainly be represented in the 
inter-agency process that decides which way to go.
    Chairman Levin. I'm not an expert on the subject and I'm 
not trying to tell you what the recommendation should be, even 
though it seems pretty obvious to me that if you're going to 
have ships that are going into dangerous waters; we only have 
so many naval ships. We can't protect every ship, nor should it 
be expected that we will do that. So I would hope that we would 
have a recommendation that is clear. Whether it's mandatory or 
whether it's just a recommendation is a different issue. But, 
we should at least provide a recommendation to the private 
shipping world that's going into that area as to whether they 
ought to have private security and, if so, under what 
conditions, what are the most vulnerable ships, what are the 
times of the year, whatever the criteria are, because I think 
our Government can't just simply leave it up to the private 
shippers without a recommendation when our naval ships get 
involved, as they have. That's a public resource, and it's 
limited, as you point out, Secretary Flournoy. We have limits 
on how much we can do in that area because we have other needs 
for our Navy.
    Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    In your written statement, Madam Secretary, you said, 
``Each year more than 33,000 vessels transit the Gulf of Aden 
and in 2008 there were 122 attempted pirate attacks, of which 
only 42 were successful.'' In other words, pirates attacked 
less than one-half of 1 percent.
    Now, that makes it sound like that percentage is small 
enough we shouldn't be as concerned as we are today. I looked 
into the written statement of Mr. Caponiti and it says here 
that the International Maritime Bureau (IMB) reported in 2008 
globally 11 mariners were murdered by pirates and another 21 
are missing and presumed dead. The IMB also reported that 
during this same period off the Horn of Africa four mariners 
were killed, and so forth.
    I think the first thing we need to do is see if there's 
unanimity among all of us, the four of you and those of us 
here, that this is serious enough that the statistics will not 
minimize the concern that we should have. Do you agree with 
that?
    Ms. Flournoy. Yes. I also went on to say that I do think 
this is an important problem that we need to pay attention to, 
but I was trying to put the frequency of attacks and the fact 
that most are unsuccessful into perspective. It's certainly a 
concern, and a problem that we need to address.
    Senator Inhofe. Admiral, let me first of all say how much I 
enjoyed spending time with you on the USS Stennis, the aircraft 
carrier. I always remember because of the coincidence in the 
young lady who was a seaman. She was wrapped up in a refueling 
hose and pulled overboard and almost every bone in her body was 
broken. I saw her at Landstuhl, at the hospital, and she was 
saying all she wanted to do was get back to her ship.
    Coincidentally, it was the Stennis, and her name was 
Stennis. So I want one of your staff people to tell me whatever 
happened to her and did she get back there?
    [The information referred to follows:]

    Latoya Stennis was stationed on John C Stennis a few years after 
Admiral Winnefeld was the XO. As we understand it, Senator Inhofe met 
her in Landstuhl in late 2001 or early 2002.
    Ms. Stennis was transferred to the Temporary Disabled Retired List 
and discharged on 4 Sep 03. Regrettably from what we could determine, 
she was never able to return to duty aboard the Stennis.

    Senator Inhofe. First of all, I really appreciate what the 
chairman is bringing out. This analogy with the shopping 
centers is something. My feeling is when I first saw this that 
we, the United States of America, should just have a zero 
tolerance policy for this type of behavior.
    Now, I look at the bureaucracy that we're dealing with and 
I've never seen such a mess in my life. You have the U.N., 
African Union, AU, and the EU. It seems like everyone has to be 
in agreement on all these things. If we're going to sit around 
waiting for the U.N. to come to total agreement, although I 
think they've already done this, then it's going to be a long 
time before we resolve the problem.
    Now, I agree with the chairman that we should get something 
really specific as to what we could do both in the public and 
private sectors. The one thing that I had thought, mistakenly I 
guess, that was the inhibiting factor was that most ports will 
not allow ships to come in if they are armed. Is this a problem 
or have we overcome this problem?
    Ms. Flournoy. My impression is this is still very much a 
problem that limits us. But perhaps my colleague can comment.
    Admiral Winnefeld. It is very much a problem. For example, 
the embarked security that was on the Bainbridge carrying 
Captain Phillips in had to get off before they could go into 
Mombasa.
    Senator Inhofe. Now, is this a policy by the individual 
ports? This is not some big authority that's dictating these 
standards.
    Admiral Winnefeld. Yes.
    Senator Inhofe. I think one of the first things that should 
be done is to visit these ports and have the private sector 
that is using these ports make sure that particular problem is 
resolved if they want to continue with ships out there. Is 
there a problem with going to these ports to try to get that 
policy changed? How would you do it?
    Admiral Winnefeld. Well, sir, these are sovereign states 
and this is their right as a sovereign state.
    Senator Inhofe. So it would be the private carriers 
probably that would have to do this?
    Admiral Winnefeld. They probably could intervene. I don't 
know if there's a role for the State Department.
    Ambassador Mull. From the State Department's perspective, 
were there a U.S. Government policy to promote the use of armed 
security guards you can bet that the State Department and our 
embassies in each of these countries would be engaging with the 
governments to make it possible for us to implement that 
policy.
    Senator Inhofe. I think we should do that, if that is an 
inhibiting factor out there.
    Admiral, in your statement, you mentioned these things: 
information exchange; assistance to ships in this area; stating 
that we're talking about more than square miles, and of course, 
I know what a capacity problem that can be; counter-piracy; the 
asset-intensive actions that would take place.
    I agree that we need to do something in terms of having 
them for the private sector to arm themselves, and then having 
a policy where we are able to use the Navy. But now it becomes 
a capacity problem. Particularly, we now find out we're going 
to be reducing our number of ships to 300, and I think perhaps 
this might argue for a change in that policy.
    But in terms of just assets that are available to you, if 
we were to say to you, we want you to intervene and take over 
and provide some of the services that the chairman was talking 
about, what is your capacity? Could you do it? How much could 
you do?
    Admiral Winnefeld. You're talking about the embarked 
security teams?
    Senator Inhofe. Yes, to provide security.
    Admiral Winnefeld. That is a significant capacity issue. 
When you look in the theater on any given day, there are 
somewhere around three to six U.S. flag vessels in the area 
where you could be vulnerable to pirate attack. If we were to 
put embarked security teams on all of those ships, to include 
the teams themselves, moving them to some port of embarkation, 
which is normally not near that area, and then riding the ship 
and disembarking them in another area, and then you multiply 
that out to determine how many teams we would need, and we have 
not done that math, but it's a significant number of teams. 
That would be a large dent, and cost as well.
    Senator Inhofe. I understand the capacity problem and the 
cost problem. But to me it appears that just by having that 
policy would have a deterring effect on the incidents that are 
out there.
    Admiral Winnefeld. No doubt having military embarked 
security teams would deter incidents. But we believe that it's 
a capacity issue and we believe that this is something that 
private industry needs to do for themselves. It would be 
conferring a significant benefit on a private industrial entity 
if we were to provide them basically the shopping mall security 
guards that they potentially would be providing themselves if 
that situation is reached.
    Senator Inhofe. My time has expired, but I hope we have 
time for the second round. I want to get into the CTF-151 
makeup and also the AU. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Incidentally, in terms of the numbers that Senator Inhofe 
was talking about, one of you mentioned the number that I've 
seen in the press and it becomes part of the background, but it 
really is a stunning and shocking number, that the pirates 
still hold at least 18 ships and 300 people. I take it, Madam 
Secretary, that none of those are Americans to the best of our 
knowledge?
    Ms. Flournoy. That's correct, Senator.
    Senator Lieberman. Are they widely dispersed nationals?
    Ms. Flournoy. They are. There are multiple nationalities 
involved.
    Admiral Winnefeld. I can tell you about half of them are 
Filipino.
    Senator Lieberman. Because they're working on the ships.
    Admiral Winnefeld. Because there are so many Filipinos in 
the international work force.
    Senator Lieberman. Okay. Admiral, let me ask this question, 
and let me begin it from this point. We know on this committee 
that in the conduct of the wars we're involved in in Iraq and 
Afghanistan there is now a competition or stress on certain 
categories of Service people, particularly the so-called 
enablers: ISR, engineers, and certain aviators.
    To what extent is our increased presence in the Gulf of 
Aden to deter piracy intensifying the stress on those positions 
or on others that might otherwise be assigned to Iraq and 
Afghanistan, and some other theater of conflict? I suppose I 
should have asked you first, Madam Secretary, and then we can 
go to the Admiral. Either way, whichever you'd like.
    Admiral Winnefeld. I would say, sir, that those ships have 
been drawn essentially from other missions that they would 
ordinarily be conducting in theater, for example in the Arabian 
Gulf or elsewhere.
    Senator Lieberman. Right.
    Admiral Winnefeld. In terms of a direct impact on the 
campaign in Iraq or the campaign in Afghanistan, there's not a 
huge detriment from those ships being there as opposed to our 
capacity to conduct operations in those two theaters. When you 
start getting into the additional ISR that you might need to 
more effectively hunt pirates, when you start getting into the 
additional Special Forces that might be required to conduct 
other piracy-related missions in the area of responsibility, 
then there would be an impact, and it wouldn't necessarily 
stress the force more, but you'd have to make the balance 
between stressing the force or detracting from an ongoing 
counterterrorism mission.
    So it's a balance. As far as the ships go, they're doing 
fewer of the normal missions they would do.
    Senator Lieberman. Right. But you're saying in terms of 
personnel and equipment maybe there might be that kind of 
stress, just exactly the way you stated it.
    Admiral Winnefeld. Potentially, yes, sir.
    Senator Lieberman. Madam Secretary, do you want to add 
anything to that?
    Ms. Flournoy. No, I would agree with that assessment.
    Senator Lieberman. The reason I ask, of course, is to make 
the point that insofar as the U.S. military has taken on an 
extra responsibility here, which the private shipping industry 
appears not to be taking on--not to say that either could take 
care of all of this--it does have costs. We have to find a way 
to increase the responsibility of the private shipping business 
to self-protect here.
    I worry that they're making a calculation, I'm not 
suggesting evil at all, but from the statistics Secretary 
Flournoy gave, one-half of 1 percent of the ships traveling 
through these areas are intercepted by pirates. So if you're 
making a business judgment, the odds of having this problem are 
quite low, even though the financial consequences of a 
particular seizure may be high. But you start to balance that 
against the cost of putting security personnel on all your 
ships and maybe it's worth taking the risk.
    But from a larger, if I can say, international citizenship 
point of view, a safety point of view, it's not the right 
decision. It does have effects on our national security, based 
on the fact that we have to put more forces in to fight pirates 
and try to deter them.
    So I just want to make the point, and backing up my 
colleagues, I think we have to find a way, perhaps through some 
of the inducements you mentioned, like tax credits for money 
spent on self-protection on the ships by the shipping industry, 
to make sure this happens.
    Incidentally, I presume the requirement that ships coming 
into various ports not have people carrying guns on them was 
done either to stop terrorism or lawlessness. As Chairman Levin 
and I discussed, ports want ships to come in, and surely 
there's a way to say that if the guns on board are being 
carried by security personnel then that shouldn't create a 
problem.
    I want to go to a second point here, which is: To what 
extent does the instability of the Government of Somalia create 
this problem? Maybe I want to ask a general question first, 
Secretary Flournoy, which is: Who are these pirates and why is 
this problem escalating so now, or for the last year or 2? In 
other words, I presume they're organized criminal gangs without 
political motive.
    Ms. Flournoy. Our assessment is their primary motivation is 
economic. The resurgence of these groups is really because of 
the very dire situation in Somalia. These are young men with no 
prospects of any real legitimate employment. When you look at 
the money they earn from participating in an attack, it may 
take care of their family for a year or more.
    It's a high risk, but high payoff, business proposition for 
most of them. So I think addressing the lawlessness, the 
economic situation, and just the sheer desperation and 
destitution of many in Somali society has got to be part of 
this problem. Obviously, that's something that's going to take 
a very long time and be a very complex challenge. But that is 
something we have to work on over time.
    Senator Lieberman. So you would say that the increase in 
piracy in the last couple of years is the result to a great 
degree of the instability in Somalia?
    Ms. Flournoy. That and the fact that for the most part 
private industry has generally chosen to pay ransoms, and that 
has created a market.
    Senator Lieberman. That's the motivator.
    Ms. Flournoy. Yes.
    Senator Lieberman. My time is up, but I'll be interested to 
hear as this goes on what the international community intends 
to do and what our government intends to do to try to make the 
government of Somalia more stable.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I've got to say this has been a most disturbing panel. It's 
very depressing to me and I think your testimony is very 
depressing. Secretary Flournoy, you're DOD policy, and I can 
tell you what the policy of the United States has been. During 
certain periods of time we've not been able to adhere to it, 
but the policy of the United States is millions for defense, 
not one cent for tribute.
    Flag ships of the United States of America have a right to 
sail in the high seas, and we have a governmental duty, do we 
not, Admiral, to protect American flag ships on the high seas? 
Isn't that a Navy responsibility?
    Admiral Winnefeld. We have a responsibility to protect them 
where we can, with the assets that we have available, sir.
    Senator Sessions. We have the responsibility to ensure that 
our ships have a right to traverse the high seas according to 
the laws and the historical rules of the high seas; isn't that 
right?
    Ms. Flournoy. Sir, I would say that it's a shared 
responsibility. We certainly have a responsibility that we step 
up to, as was evidenced just a couple weeks ago; when they are 
in extremis, when they are attacked, we will protect them. We 
have ships out there every day seeking to deter the threat.
    But they also have a responsibility to take the essential 
measures they can, the most effective measures, to protect 
themselves.
    Senator Sessions. Well, I'm aware of that. We're not at 
every spot in the globe every minute. We can't guarantee 
immediate response to a danger. But we should not try to give 
away or excuse away the responsibility we have to protect ships 
on the high seas.
    I remember at a commissioning ceremony not long after the 
Cole was attacked not far away from there, this area, and one 
of the sailors screamed out, and it still sends chills in me, 
``Remember the Cole.'' This is a responsibility we have. I want 
to make that point.
    I am probably the only member of the Senate, or the House 
for that matter, that's ever prosecuted a piracy case. Admiral, 
Ambassador, we have piracy laws. If somebody takes over one of 
our ships on the high seas, they are subject under existing law 
to be prosecuted, and the venue for that prosecution I believe 
is the first port to which they are brought within the United 
States. There's no problem about law.
    Why we need the U.N. to pass some resolution is beyond me. 
I'm glad that they are concerned about it, but it's not 
necessary. We don't need treaties to defend our ships.
    One of the problems with the private security guards, the 
shipowners I understand suggest--and I think they should have 
them--is that violence could occur, they could be sued and 
there could be liability. Has anyone thought about providing 
for a defense or an immunity for shipowners who are doing their 
best to defend the ships, who are subject to hijacking out on 
the high seas? Has that been discussed? Are any of you involved 
in that?
    Admiral Winnefeld. Sir, I would say that all of the issues 
that have been raised regarding embarked security teams paid 
for by merchant mariners, which we would not disagree with 
doing, are all being studied. I know that they really are being 
looked at in terms of what are the barriers to doing that.
    Senator Sessions. Well, have you come forward with any 
suggestions to fix some of these barriers? Maybe Congress would 
be willing to accept your recommendations.
    But all we're hearing is negotiations and talk, and no real 
action. There are 300 sailors being held, 20 or more ships, and 
I don't think we have reached any clarity of action. What are 
we going to do is the question.
    Secretary Flournoy, you quote the piracy of Roman times. 
Appenine's history, the ancient history of Rome, talks about 
that. What he talked about was how ships were being seized in 
the Mediterranean and they were raiding the Italian coast, and 
had captured proconsuls of Rome. I think I remember this quote 
directly: "When the Romans could stand the disgrace no longer," 
they got together, they formed a task force of hundreds of 
ships, I think. They issued orders to those around the 
Mediterranean to the Pillars of Hercules that no one should 
give comfort or aid to the pirates, and they went after them, 
thinking it would be about a 2-year process. Within 6 months 
they destroyed them.
    They came back in the time of the early American Republic, 
and captured our ships. President Jefferson and others were 
mortified that we had to pay tribute to these pirates, but they 
had no alternative. We had no Navy. Eventually we got the 
ships, and Stephen Decatur landed at the shores of Tripoli, and 
that broke the piracy. I would suggest you see Mr. Oren's book 
on the Middle East when he details that history.
    So this is a question of will. I'm just telling you, you 
need to figure out how to do it and get busy, and this will 
stop. When we've taken strong action, we have broken the back 
of piracy. It is not something we've got to live with. I hope 
that you'll get busy about it. I just find this bureaucratic 
talk here is not very encouraging to me.
    I think the Obama administration needs to send a clear 
message that when the legitimate interests of this Nation are 
threatened we're prepared to defend our interests, and we're 
not going to pay tribute to pirates, and we're not going to 
allow Americans to be captured.
    Maybe it's personal to me because of the Maersk Alabama and 
the connection to Alabama over this ship and the heroic actions 
of Captain Phillips and others on that crew. But I really 
expect more from you at this hearing, more progress, more 
concrete plans, and a determined will to break the back of this 
unacceptable activity.
    We can do this. We have a Navy today and we can do it.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Secretary Flournoy, you indicated to Senator Lieberman that 
this is primarily an issue of money, poverty, et cetera. It 
strikes me that the gunmen who've taken these ships on aren't 
exactly rolling in luxury, that there's a financial 
infrastructure which could be attacked, as well as a physical 
infrastructure of ships and pirates and self- defense of our 
ships. What are we doing to sort of disrupt the financial 
infrastructure?
    Correct me if I'm wrong, but I don't think any American 
ship has paid any tribute, and that's not the policy of the 
United States.
    Ms. Flournoy. U.S. policy is not to pay ransom under any 
circumstances, and that is a policy that is very much in 
agreement with Senator Sessions' point.
    Senator Reed. In fact, the latest demonstration of policy 
is that when pushed to the extreme we will use lethal force to 
protect Americans.
    Ms. Flournoy. Right. When the Maersk Alabama was taken, for 
example, we were very clear that we did not want a ransom paid 
for a U.S. ship, and we eventually took military action to 
resolve that situation and save an American citizen.
    With regard to the finances, the U.S. Government has asked 
the Treasury Department in particular to try to turn its 
attention to trying to understand the financing behind piracy 
and, where possible, identify and disrupt those who may be 
sponsoring investment in some of the infrastructure and so 
forth.
    It is more difficult than in some other criminal areas of 
activity, in that the ransoms are usually paid in cash. There's 
not a banking system in Somalia to speak of. Couriers are 
taking cash to people elsewhere. So it's a very difficult 
problem to get a handle on.
    That said, we are really focused on trying to understand 
the financial infrastructure and ways to interdict it. So that 
is an area of focus.
    Senator Reed. Admiral, do you have a comment?
    Admiral Winnefeld. I was just going to pile on to Under 
Secretary Flournoy's point. The Treasury Department has the 
best people in the world at doing this, and we are actively 
engaged with them. It's a very frustrating problem for them 
because of the cash payments that Secretary Flournoy alluded 
to. But there are other methods that they're looking at that 
hold some promise.
    So we are on this. It's a little bit tough to talk about in 
a public hearing.
    Senator Reed. I understand that.
    Chairman Levin. Senator Reed, I'm wondering if I could just 
interrupt you. Forgive me.
    The vote has just started. Senator Reed, if you could, when 
you're done with your questions, call on the next person in 
line. The staff will give you guidance on that. Then Senator 
Webb will be back at 11 o'clock to chair for about a half an 
hour. Thank you.
    Senator Reed [presiding]. One of the aspects, I think, of 
the political structure of Somalia is it's dominated by tribal 
arrangements. To what extent are you working through or with 
these tribal groupings to try to counteract this issue on the 
ground? I notice that when the Maersk Alabama was seized there 
were some discussions with tribal leaders on the ground to 
release the captured captain. We were not going to let the 
pirates go free. We were going to take them into custody, and 
that's where the negotiations broke down.
    But, Ambassador Mull, you might want to comment.
    Ambassador Mull. Yes, you're absolutely right, Senator, 
that throughout Somalia the clan structure is really the 
dominant force in governing the place or, one might say, 
misgoverning the place. The tribal leadership in the Puntland 
area, which is the northernmost coast of Somalia and has been 
the source of the vast majority of these pirate attacks, has 
begun exploring with us the possibility of our providing 
security assistance and additional resources to them to assist 
them to patrol their own people and to prevent acts of piracy 
before they begin.
    We don't have an embassy in Somalia. We manage our 
relationship and activities in Somalia through our embassy in 
Kenya. We are reaching out to the leadership of Puntland to see 
how we might bring that kind of cooperation about.
    The challenge, of course, is there's a great deal of 
corruption in Somalia. There's at least some anecdotal evidence 
that there is cooperation between some of the officials of the 
clan structure with some of the pirate rings that are operating 
out of Puntland. So we need to be very cautious that in 
assisting this government we're not in fact assisting the 
pirates and enabling even further attacks.
    Senator Reed. Thank you, Ambassador.
    Admiral, CTF-151, could you just give me a rough idea of 
its composition and also the extent that our allies are 
prepared to sustain this effort over the longer term?
    Admiral Winnefeld. Yes, sir. CTF-151 was created by Central 
Command and Naval Forces Central Command specifically to 
counter piracy. It's growing day by day. I believe it has five 
current nations and around five or six that are exploring the 
notion of actually joining this command and control construct.
    There are 28 total nations out there that are participating 
in the counter-piracy effort, and it's a complicated puzzle, if 
you will, of political arrangements. The EU has Operation 
Atlanta out there. NATO has Standing Naval Forces-Mediterranean 
that is out there. We have our partners in CTF-151. There are 
several independent partners; the Republic of Korea, China is 
even out there, and Russia has been out there.
    It's a fairly loose compendium of nations that actually 
work very well together. There are several mechanisms that we 
have out there that coordinate efforts, that allocate space and 
communicate intelligence and other information. When you 
consider that the only overarching alternative you could get to 
would be a U.N.-led operation, which they're not really 
interested in doing, this is a very effective operation, and I 
would give Admiral Bill Gortney, who is the Commander of Naval 
Forces Central Command, a lot of credit for keeping this 
together and working closely with our partners.
    Senator Reed. Thank you very much, Admiral. Thank you, 
Madam Secretary, and gentlemen.
    Senator Collins.
    Senator Collins. Thank you.
    Madam Secretary, I'm very troubled by your statement in 
your testimony saying that the root cause of Somali piracy lies 
in the poverty that continues to plague this troubled country. 
These are criminals and if we treat this criminal activity as 
being attributable to poverty, we're going to be ineffective in 
dealing with it.
    Similarly, when you had your exchange with Senator 
Lieberman you said that for the pirates this is a high-risk 
activity. But it really isn't. Think what happens. If they're 
successful, in most cases the ransom is paid. They're rewarded 
for taking what I would argue is a low risk. In the cases that 
you cited, the vast majority of cases where the attacks are 
repelled, there are no consequences for launching the attack. 
They're not prosecuted. They're not harmed. They're not shot.
    So essentially, from my perspective, this is a low-risk 
activity for them. What happened with the extraordinary 
activities of our naval SEALs was unusual, that the pirates 
were killed. In most cases, when they're repelled they just go 
on to attack another ship, until ultimately they're successful.
    So from my perspective, our policy is going to be 
ineffective until we treat this harshly, until we treat this as 
the criminal activity that it is. So from my perspective there 
are two things we need to do. One, we need to put pressure on 
the London-based insurance companies to stop paying ransom. 
Second, we need to have a more effective process for bringing 
these pirates to justice.
    So those are the two issues I want you to address.
    Ms. Flournoy. Senator, you are right, this is criminal 
activity and we do treat it harshly. When we catch pirates in 
the act, we turn them over for prosecution; 146 have been 
turned over for prosecution.
    Senator Collins. But how many of them have actually been 
prosecuted?
    Ms. Flournoy. I would have to get back to you on the exact 
figures.
    [The information referred to follows:]

    Kenya has taken a leadership role and continues to work 
constructively with the United States and others in the international 
community to prosecute suspected pirates apprehended off the Coast of 
Somalia. Kenya has accepted 110 suspected pirates for prosecution since 
2006. Of those 110 individuals, 10 have been convicted and those 
convictions were recently upheld on appeal, (the 10 were delivered to 
Kenya in October 2006 from a seizure by the U.S. Navy in January 2006). 
The trials of the remaining suspects, most of whom were delivered to 
Kenya in 2009, are at varying stages with 61 prosecutions scheduled for 
August. We are unaware of any acquittals to date.
    In addition to prosecutions in Kenya, additional suspects are being 
prosecuted in France (at least 9), the Netherlands (5), and the United 
States (1).
    Although verified data are not available, we believe that the naval 
forces of various countries have delivered approximately 80 additional 
suspected pirates interdicted off the coast of Somalia to Yemen (22), 
Iran (11), Puntland (36), and the Seychelles (12). Of the above, all 
successful prosecutions recorded to date have occurred in Puntland. Due 
to transparency issues with the Puntland legal system the ultimate 
disposition of these 36 suspect pirates remains unknown, but open 
source reporting corroborates their incarceration.
    Specific information on the Kenyan prosecutions is more readily 
available because suspected pirates have been transferred pursuant to 
our agreement with the Government of Kenya and because we have an 
Embassy liaison that works closely with the prosecution's office. The 
additional information available on suspected pirate prosecution in 
other countries, however, requires corroboration from the public domain 
and is therefore approximate.
    All data presented here is as of July 1, 2009, and includes 
activity subsequent to the May 5, 2009, hearing.

    Ms. Flournoy. But the point is I think we are treating this 
seriously as criminal activity. What I was trying to say is 
when you look at the motivations of the pirates, in every case 
that we're able to identify where we have real data, it is 
economic in nature. I was trying to tie back to the fact that 
Somalia has virtually no functioning economy, which gives rise 
to a greater degree of criminality than we would expect if 
Somalia had a functioning economy, government, law enforcement 
capacity, and judicial capacity, et cetera, et cetera.
    So the economic situation, the lawlessness in Somalia, only 
exacerbates the criminal activity. But we do treat this as 
criminal activity. We do not pay ransoms. The U.S. Government 
does not condone the paying of ransom by anybody. We do seek 
prosecution in every case where we have evidence, and so forth. 
So we are treating this very seriously.
    We are also working with allies to press them to create the 
domestic legal infrastructure they need to pursue prosecution 
consistent with international law, which provides for that sort 
of umbrella, if you will. And we are pressing more countries to 
be part of the coalition in terms of being willing to take 
pirates and prosecute them beyond just Kenya.
    So I think we are very much in line with your desire to 
treat this seriously and to prosecute pirates when we are able 
to apprehend them.
    Senator Collins. I look forward to getting the specific 
statistics from you, because it's my understanding that very 
few of these pirates have actually been brought to justice. As 
long as they're being paid off and there's little risk of being 
caught and prosecuted, this activity's going to continue.
    Thank you, Mr. Chairman.
    Senator Webb [presiding]. Thank you, Senator Collins.
    I guess I'm next. Secretary Flournoy, let me begin by 
apologizing for having missed a portion of your responses, so 
I'm not sure whether you and other members of the panel have 
addressed some of the issues that I'm going to raise. But I'm 
going to go forward on those.
    I would begin by first of all making a distinction with 
something that Senator Lieberman said, and then going on the 
record to agree with him on something else. I don't believe 
that this is any way an extra responsibility by the U.S. 
military. I think this is part of its historic role that's gone 
back for 200 years. It's a part of who we are as a Nation.
    At the same time, I'm going to ask a question in a minute 
about the role of the international carriers in their own self-
defense, what their responsibilities might be, because I think 
that Senator Lieberman raised a very legitimate question in 
that respect, and I'm going to follow on from a conversation 
that I had in the Foreign Relations Committee last week with 
the chairman of Maersk on that issue.
    But it seems to me that we, at least in the national 
security area, the problem in some ways emanates perhaps from a 
failed state of Somalia, but it would seem to me that the 
problem has grown and become exacerbated by these huge ransoms 
that have been paid as a reward for this type of conduct, with 
almost no accountability on the other side. If you have people 
sitting on the peripheral areas of Somalia who can't afford a 
pair of Adidas and they know if they pick up a weapon and go 
out in international waters, it's almost like the dog catching 
the fire truck. They can go out and point a weapon at one of 
these huge vessels and end up with millions of dollars, as it 
now turns out. They just continue to escalate the ransom and 
they continue to receive the ransom.
    There are countries that would as a matter of policy be 
willing to continue to pay those ransoms. That's one thing that 
we have heard. But we in the United States I believe need a 
clearly stated policy with respect to these sorts of attacks on 
our flag vessels or in areas where U.S. citizens are involved. 
The rest of that goes into in many cases sovereignty issues 
that are beyond what we ourselves as a Nation may want to agree 
with, but the place to start on this is with our own national 
policy.
    Admiral, you're very correct to talk about the requirements 
of maritime security. But it would seem to me if we're looking 
at this logically we don't have to secure an area four times 
the size of Texas. The security begins at the target and 
emanates outward, not with the expanse of the ocean.
    So really what we should be looking at are clear rules of 
engagement that everyone understands, including other 
countries, to address this principally as a problem with the 
use of force, and to refine those rules in two areas. One is 
the question of the use of force by non-military security 
personnel on board certain ships. Your own statistic, Secretary 
Flournoy, when you're talking about 78 percent of the foiled 
attacks came about because there was some sort of armed 
presence or some sort of resistance on a ship; is that correct?
    Ms. Flournoy. Some defensive measure, not necessarily armed 
security.
    Senator Webb. Some sort of action from the ship.
    Ms. Flournoy. Yes.
    Mr. Caponiti. Mostly just speeding up and turning, evading, 
frankly. And on occasion, yes, sir, an armed response or some 
other active measure, like a fire hose.
    Senator Webb. Well, a defensive action of some sort 
emanating from the target has an impact on the people trying to 
take the target. Even something as benign as speeding up and 
changing course can affect the ability of the people who are 
attempting to carry out these activities.
    Mr. Caponiti. Sir, if I could add, one thing that hasn't 
been made clear yet--and somehow this got lost in the message 
because we got hung up on the armed security issue--there are a 
set of best management practices out there that are tested and 
real and they're being followed by the industry. It's not that 
these carriers are not hardening themselves. It's in their own 
self-interest to harden themselves and they're doing what they 
can do. I can't say that emphatically enough.
    There's a suspicion that perhaps 30 percent of the 
international community is not following best practices. But 
most of the responsible carriers are.
    What we are trying to do as an international body is 
further disseminate, further make known, and put pressure on 
everybody to do what's right.
    Senator Webb. Right, but the definition of best practices 
is those practices that have been agreed upon in this 
international business community.
    Mr. Caponiti. Yes.
    Senator Webb. It's not necessarily best practices that we 
would define if we were looking at this from a different 
viewpoint in terms of putting armed security people on these 
ships.
    Mr. Caponiti. It's both benign and armed. There's a variety 
of mechanisms that are in place. The armed security is a real 
issue. For certain vessels in certain waters, it's probably a 
reality where we are, and we're getting hung up on the debate 
of that because the insurance carriers themselves say very 
clearly that they are more comfortable with embarked military 
security.
    Senator Webb. I'm not talking about military security.
    Mr. Caponiti. But they're more comfortable because there 
are rules of engagement.
    Senator Webb. I understand that, but you're not going to 
the point that I'm trying to make.
    Mr. Caponiti. Okay.
    Senator Webb. I understand that if we were to put embarked 
military security on ships at certain points that there's a 
wider group of international associations that would be 
comfortable with that, but that's not what I'm talking about.
    What I'm saying is that, if you look at that issue and why 
it hasn't been agreed upon, and particularly from the testimony 
that we had last week on the Foreign Relations Committee, it's 
that there is not an agreement on that with respect to 
international shipping. In fact, they disagree with that. From 
the companies' perspective, they're concerned about liability 
issues on board the ship if you're allowing crew members who 
are not properly trained, or if you're going to have an 
incident on the ship where somebody goes into the weapons 
locker and gets a weapon, what's the liability for the shipping 
company itself; and then there is this issue of port visits.
    I would suggest that all of those are eminently solvable 
and that it makes sense that if you have the option of the 
shipping companies to put security people on board ships at 
certain transit points if they decide that they are at risk, it 
would be their obligation to do so. When the chairman of Maersk 
was testifying before us, he said it would have a minimal 
increase in terms of the cost of doing business.
    The second area that I think we should be examining is the 
difference in our legal and military perspective between 
international waterways and conducting any sort of activities 
inside the territorial waterways or the shore in places like 
Somalia. What is the policy of DOD, Secretary Flournoy, on 
issues such as hot pursuit or preemptive strikes or considering 
these people as enemy combatants once they have engaged our 
forces and going to where they operate from?
    Ms. Flournoy. Senator, the U.N. Security Council 
resolutions on the books actually include pursuit into Somali 
territorial waters. I would like to try to clarify U.S. policy 
in context because I think there have been a lot of questions.
    First of all, we as a government do not condone the paying 
of ransom. We seek to end the paying of ransom.
    Second, we will respond to U.S. ships in extremis.
    Third, we will prosecute pirates as criminals whenever we 
catch them in the act and have the evidence to prosecute them. 
We do not catch and release pirates that we've caught in the 
act.
    We will also interdict and try to confiscate any guns and 
material from those who we suspect may be pirates.
    Senator Webb. How about their boats? Is it our policy that 
we will confiscate their boats?
    Ambassador Mull. We are confiscating their boats and 
sometimes destroying their boats.
    Ms. Flournoy. Sinking weaponry and that kind of thing.
    We also have a policy of pressing the shipping industry to 
adopt best practices, passive and active defense measures, to 
increase their security and reduce their vulnerability to 
attack. So I think there are a number of very clear and I would 
argue tough policies in place. But we are treating this as an 
act of criminality at this point, we do not see these people as 
enemy combatants per se.
    Senator Webb. Thank you.
    Senator Wicker.
    Senator Wicker. Thank you, and thank you to the panel.
    We're having this hearing because of the Maersk Alabama and 
the incident that got so much publicity. Of course, we learned 
that there were over 100 attacks last year and more than 70 
this year, but it was the Maersk Alabama, involving Americans 
and an American being held captive, that has captured the 
imagination of the American people and caused us to be here.
    So I think one of the things that we should do, Mr. 
Chairman, is talk about lessons learned so far. What lessons 
did we learn from the Maersk Alabama? What lessons did we learn 
from the experience of the international community in the 
Straits of Malacca, where apparently several years back we had 
upwards of almost 100 attacks and now we only had 2 last year. 
Was that a matter of extreme poverty along the area of the 
Straits of Malacca, and has that poverty been eradicated? Would 
anyone suggest that that's why things got a little better 
there? Or is it the fact that the countries involved got 
together in an organized way and decided to put a stop to it?
    I wonder if we could assess what lessons the pirates may 
have learned. Now, I know they're disorganized and I know this 
is not part of some international terrorist group. They're 
criminals. But they do listen to the media and they do know 
what is happening. It seems to me that one lesson they may have 
learned, one lesson I hope they learned, is don't mess with the 
United States; you may take a head shot if you take an American 
captain prisoner.
    So if I'm a pirate today off the Horn of Africa, I may be 
thinking: If I know that's an American ship, then I want to 
stay away from that.
    I was interested to learn last week that we don't fly our 
flags on the open seas. Actually, when we mentioned that in a 
bipartisan manner before the Foreign Relations Committee, there 
was some resistance by Captain Phillips himself and an 
executive from the Maersk corporation to the concept of 
actually flying our flag or putting a replica of the flag on 
the side of the ship. I wonder if you would comment about that.
    But is there a way that we can make sure that when these 
folks in desperate financial straits from a failed country are 
thinking about embarking on such a course, that they look out 
there and say: Ah, that's an American ship; maybe we ought to 
wait for the next one to come along.
    Ms. Flournoy. I'm going to let the admiral address the 
operational lessons learned from the specific issue with the 
Maersk Alabama. But if I could address your broader point. I do 
think that, although some of the pirate rhetoric after the 
Maersk Alabama was about seeking revenge, I actually do think 
the fact that we conducted a successful operation and pirates 
were killed, will have some deterrent effect on pirates seeking 
out American ships in the future.
    But I think the most effective deterrent again is a clear 
set of active and passive measures that make the pirates 
believe that a particular ship is not an easy target, but a 
difficult target.
    Second, to your point about the Straits of Malacca, what 
happened there was a group of regional countries getting 
together to increase their coordination with regard to 
surveillance, reconnaissance, communications, interdiction, and 
so forth. Unfortunately, given that Somalia is a failed state 
without an effective government and without any real capacity, 
that kind of solution is not as readily available in the Somali 
Basin at this time.
    Admiral Winnefeld. I just want to reinforce what Secretary 
Flournoy said. First of all, I wouldn't want to offer any good 
lessons to the pirates that they could use in their next 
attack. But I think one of the most important ones is ship 
self-defense. As we look at the risk assessment criteria that 
we would apply to a U.S. flag ship going through that area, at 
the time she went through she was in about the highest risk 
category you could possibly ask a U.S. ship to be in: low 
freeboard, as Jim said; relatively slow; and the amount of time 
she would be spending in the area, and the like.
    It's interesting to note that when she went into Mombasa 
after the piracy event was over that--and I won't go into 
detail in a public hearing--she added about six or seven of the 
industry best practices to that ship that are aimed at 
preventing piracy. Not just the speed and maneuver, but other 
things you can do aboard your ship that will make you more 
defensible. She's done that now, so I think there's a lesson 
there that was learned and capitalized on. So I think it's a 
positive message that that occurred, and we'd like to see all 
ships, especially U.S. flag ships, capitalizing on those 
lessons and doing the relatively simple things that they need 
to do to protect themselves, that would make most of this go 
away.
    Again to reinforce Secretary Flournoy's point on the 
Straits of Malacca, it's a very good example of a relatively 
small and narrow body of water that's easier to police than the 
large Somali Basin and the Gulf of Aden, with nations that are 
on the littorals of that area that are willing and able to take 
steps, and they did, partly at our own encouragement, and 
they've been very, very effective, and it's a great example.
    We'd like to see that happen in other parts of the world, 
particularly the Gulf of Guinea, as was mentioned by one of the 
other members. There are plenty of tactical lessons learned at 
the Special Forces level. It was a very well run operation. But 
you always want to draw the lessons out of something like that, 
and our guys are doing that.
    Senator Wicker. It seems to me if you try to put yourself 
in the place of these young economically driven criminals that 
are taking these ships, given the response that the United 
States brought to this instance, I think they might be 
reluctant to attack a ship flying the American flag again.
    Admiral Winnefeld. I'd like to respond to that. I agree 
with you, sir. We would love to see them flying the American 
flag. I think, believe it or not, when we've asked sometimes 
it's an economic decision. On my own ships that I've commanded, 
you have to replace the flag about once every 2 weeks because 
there's so much wind out there it gets tattered. But we fly it 
all the time, and we'd love to see the merchants fly it all the 
time.
    In terms of painting it on the side of the ship, I'm not 
sure that that's wise for a counterterrorism purpose. But out 
there on the high seas, particularly in that part of the world, 
we'd love to see them flying it, although I'm not certain that 
your average Somali pirate would understand what it means. I 
don't know if they recognize it, to be quite honest.
    Senator Wicker. Thank you very much. There are other 
considerations which, Mr. Chairman, we should take into 
consideration. It just seems to me that if you have one set of 
folks willing to write a big check to get out of this and 
another country with the best trained sharpshooters in the 
world ready to take a head shot, it might be a reason for these 
young opportunistic criminals to think long and hard before 
attacking Americans.
    Senator Webb. Thank you, Senator Wicker.
    I've been handed a note saying that Ambassador Mull has to 
leave at a certain point. I just wanted to note that for the 
record. You're welcome to stay as long as you wish.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Well, if we got Maersk to put on some of the best practices 
on their ship, does that mean we have 32,999 more to go? 
Probably not. That's just a rhetorical question.
    I know trying to coordinate action on a broad basis with 
the EU and other nations makes a great deal of sense, and there 
is a time for diplomacy. But it seems to me there's also a time 
for action, and I hope we don't overanalyze this situation with 
the liability issues and all the other issues that have come 
up, because really the questions boil down to who takes the 
risk and who pays for the risk.
    Thus far, that's been decided by certain commercial 
interests one way and perhaps by others the other way. But when 
the cost of the risk shifts to our government, almost entirely 
because of the inability of ships of American interests to take 
care of as much security as they possibly can, including having 
armed security on board, then that shift to the American 
Government is a shift to the American taxpayer.
    We all watched the Maersk incident, and I fully concur with 
the plan, fully support it, and applaud the result, because I 
think that we took the right kind of action in as short a time 
as possible, given the circumstances. But do we know what the 
cost is to our budget? That's a question: Do we know what our 
costs are? When you add up all the costs of the military taking 
the action and having to come in to do that, do we know the 
cost?
    Ms. Flournoy. I knew you were going to ask that question, 
sir. I don't have the figure yet, but we have our Comptroller 
working on trying to assess the cost of that operation, so we 
can weigh that against the costs of investing up front in 
better security measures.
    [The information referred to follows:]

    The combined cost for the Navy's response to the M/V Alabama and M/
V Liberty Sun piracy incidents is $3.114 million. The majority of the 
costs are attributable to the M/V Alabama. The M/V Liberty Sun 
situation was resolved before naval forces reached the vessel. The 
$3.114 million is comprised of the below expenses.

          Incremental fuel costs: $1,191 million
          Flying hours: $1.6 million
          SCAN EAGLE Units: $0.3 million
          Linguists support, Communications, and Temporary Assigned 
        Duty: $0.006 million
          Combined Enterprise Regional Information Exchanges System 
        support to allow vital communication between coalition partners 
        to coordinate and deconflict operations: $0.017 million

    These costs were derived from actual expenses incurred during the 
M/V Alabama and M/V Liberty Sun operational events.

    Senator Ben Nelson. I don't want to diminish the importance 
of saving the captain and taking the action that we did. But it 
does have a financial impact and we need to know that, because 
we need to multiply that if we're not going to take the right 
kind of action with respect to the rest of the American 
commercial fleet.
    Ms. Flournoy. The truth is, sir, many of the most effective 
defensive measures, passive and active, that we can take or 
that the shipping industry can take are relatively low cost. If 
Congress could think about ways to incentivize that investment 
upfront, that would be a very helpful development.
    Senator Ben Nelson. Some of that $34 million that was spent 
in ransom somewhere along the line would have gone a long way 
to pay for it as well. So I think the commercial interests have 
to assume a lot of the costs. I don't like to have that shifted 
back to the taxpayer with incentives if we can just simply 
pursue the commercial interests. They're the ones that stand to 
gain either risk or reward getting through that area.
    If the Maersk had been an asset of a foreign country, not 
of the American commercial fleet, let's say, and the 
circumstances were the same, would our military have 
intervened? Admiral?
    Admiral Winnefeld. The circumstances, as you know, were 
quite unique, with the captain adrift in a lifeboat with 
pirates. I believe that you would find we would be willing to 
assist our partners as much as we could.
    Senator Ben Nelson. Would we be the junior partner? In 
other words, if it was one of the EU ships, would we expect the 
EU to take the primary responsibility and we would assist? Or 
would we assist by taking primary responsibility?
    Admiral Winnefeld. The situation evolved slowly enough that 
we would have time to consult with our partners and come to an 
agreement on that, and it would be likely that if we were the 
first people on the scene in that case we would have done 
whatever we could to, for example, prevent the lifeboat from 
being reinforced from the shore and to prevent the lifeboat 
from making it to shore. But in terms of the actual action that 
was taken to rescue Captain Phillips in this case, we would 
consult closely with our partners to see what they wanted to 
do.
    Senator Ben Nelson. Let's reverse it now. Let's say that we 
hadn't arrived first with the Maersk and the EU-based military 
operation arrived first. What would they have done?
    Admiral Winnefeld. I believe they would have done the same 
thing, sir. I think they would have prevented the lifeboat from 
proceeding ashore and would have prevented it from being 
reinforced.
    Senator Ben Nelson. If enough time went by then we would 
arrive on the scene and we would have taken the action we took. 
What if it called for action faster than we were able to 
arrive? What might they have done?
    Admiral Winnefeld. It's always difficult to get into 
hypotheticals.
    Senator Ben Nelson. Would they have taken the same kind of 
action? Would they have been bold enough to fire upon the 
pirates in the lifeboat?
    Admiral Winnefeld. I think it really depends on the 
situation. Our allies have demonstrated in several cases that 
they're willing to use force out there, just like we've been 
willing to use force when it directly impacts our own people or 
interests. So it varies from nation to nation, and I believe 
that we've got a good relationship with our partners out there 
that we can get the job done when it needs to be done.
    Senator Ben Nelson. Is part of what we're attempting to do 
with developing this partnership with the other nations 
intended to bring everybody up to the same standard? I hope 
it's not to bring us down to the lowest standard.
    Admiral Winnefeld. Certainly not, no, sir. I would tell 
you, and Admiral Gortney would I believe say the same thing, 
that there's a continual effort. There are hosts of discussions 
and meetings that are held, and consultation among the various 
players that are out there, to talk about who's going to take 
which part of the water space, the intelligence that's shared, 
and the like. It's a good cooperative relationship.
    Senator Ben Nelson. I think it's important to do that. But 
as long as there are some prepared to go ahead and pay the 
ransom, we all still remain at a greater risk than we would 
otherwise, and I think it's important to press that upon those 
that are unlikely and perhaps even unwilling to step up and 
provide the same level of security and force that we are and 
others are.
    Thank you, Mr. Chairman.
    Thank you.
    Senator Webb. Thank you, Senator Nelson.
    For the record, I thought that Senator Nelson's round of 
questioning was pretty illuminating, and your response as well, 
Admiral. If you look out at what's been going on in the past 
few months, there are a lot of surprises. I think there are 
probably military judgments that are a little bit different 
than longer ranging political judgments from governments on the 
use of force and these sorts of things.
    It's been frequently noted that the Chinese Navy is 
operating in this region. But I think one of the most 
interesting stories came this morning when the South Koreans 
freed up a North Korean vessel. That's got to be a first in the 
last 50 years or so. So this issue is full of surprises.
    Senator Inhofe, do you have any further questions?
    Senator Inhofe. Well, I really don't. I thought we had 
other Republican members coming back, but apparently not.
    Let me just mention one thing. I was coming back in when, 
Senator Webb, you used the word combatants. I know that one of 
the problems is to set up something where you know what you can 
do with these guys. I'm just asking for information. Could they 
be considered to be combatants, as opposed to just the normal 
criminal activity? Has anyone looked into that, Madam 
Secretary?
    Ms. Flournoy. Sir, we think it's actually clearer and 
cleaner to treat them as criminals. There are international and 
domestic laws. We have available all the authorities we need to 
hold them accountable and prosecute them. I think it would 
actually muddy the waters to treat them as enemy combatants.
    Senator Inhofe. I'm not suggesting it. I'm just only 
thinking that these people do have some things in common. They 
don't really represent a country.
    One of you talked about the AU and what their attitude and 
activity is in this. Would any of you like to enlighten me as 
to what that is?
    Ambassador Mull. Yes, sir. In our exchanges with the AU as 
a whole, their collective approach to this has really been to 
focus more on what they viewed as the root causes of piracy in 
fixing Somalia. They are very eager for as much international 
assistance as they can get from us and our partners around the 
world in helping their peacekeeping force in Somalia, helping 
their meager assistance programs in building up.
    That said, individual members of the AU, most notably Kenya 
and also to an extent Djibouti, have been extremely forward-
leaning in terms of accommodating us in trying to approach 
other dimensions of the problem, such as prosecuting pirates in 
their courts.
    Senator Inhofe. With the problems in Africa that are 
demanding attention from African countries, such as Darfur, the 
problems that exist in the eastern Congo, and the problems down 
in Zimbabwe they don't really provide direct assistance. It's 
more of a clearinghouse for other African countries to do it.
    Are they really a player in this, in terms of actively 
becoming involved in trying to stop some of the violence and 
the attacks?
    Ambassador Mull. As an organization, sir, I'd say no, they 
are not particularly engaged in the piracy specific problem.
    Senator Inhofe. On the CTF-151, does anyone want to go into 
a little bit of detail on that as to what their successes are 
and what are the problems they're having right now?
    Ms. Flournoy. I'll defer that to the Admiral.
    Admiral Winnefeld. CTF-151 is a growing entity, sir. We 
have five or six nations involved directly in that right now, 
with five or six additional nations that have considered 
joining CTF-151. It is one of many in the mosaic of 
organizations that are out there which cooperate with each 
other.
    As you're well aware, I'm sure, the different political 
reasons why a nation would align itself with a different entity 
out there are fairly obvious. EU nations are with Operation 
Atlanta; NATO is out there with some of its assets, including 
one of our ships; CTF-151, a collection of nations that have 
agreed to counter piracy under that CTF designation; and then 
the individual nations that are out there who chose to not 
affiliate themselves with any particular collective, if you 
will, the Russians, the Chinese, and the like.
    I don't want to call it one big happy family, but they do 
work very well together and there are coordination meetings 
that are effective, in which shared awareness, shared 
intelligence, shared tactics, techniques, and procedures are 
active, and it's working well. Admiral Bill Gortney gets a lot 
of credit in my view for helping keep this together as well 
coordinated as it is.
    Senator Inhofe. I find it really interesting, particularly 
as Senator Webb was talking about North and South Korea and 
what's it going to take to bring people together, and maybe 
this is it.
    Ms. Flournoy. Senator, may I add a comment on this issue?
    Senator Inhofe. Yes, of course.
    Ms. Flournoy. I think this is a mission where we've had 
success, and it really is due to a pretty incredible level of 
international cooperation. While we as a Nation have had a long 
history with piracy and as a result of that have a very 
developed legal structure for dealing with this and having it 
in our mind set as part of our national security paradigm to 
deal with this and so forth, other countries do not.
    There were some negative comments about the U.N. made 
before. The U.N. Security Council has been very willing to take 
action on this, put the resolutions in place that enable some 
of these other critical partners to come in despite the absence 
of developed legal authorities in their domestic context. That 
U.N. framework has enabled others to step in, act alongside us, 
and be very effective contributors to a coalition operation. I 
think we should recognize them for stepping up and helping.
    Senator Inhofe. Okay. In my opening remarks I talked about 
all this discussion has been in East Africa, and of course we 
know there is a growing problem now in West Africa. Has anyone 
said anything about that? I'm talking about the Gulf of Guinea, 
I'm talking about the countries of Benin, Togo, Cote d'Ivoire, 
and Ghana and some of those countries that are now saying that 
they're having problems with piracy, they need help. They have 
talked about some of the 1206 and 1207 train and equip programs 
that might help them. Has anyone commented about that?
    Admiral Winnefeld. We haven't commented on it yet, sir, but 
it's a good time to do it. As you know, it is a very difficult 
problem in the Gulf of Guinea, particularly going against oil 
rig servicing craft and the like. Until the recent surge in 
piracy off of Somalia, the Gulf of Guinea was the most active 
area of the world for piracy in terms of numbers of incidents.
    Senator Inhofe. Yes.
    Admiral Winnefeld. We have a very active program using 
1206, using something we call the Africa Partnership Station, 
that is doing its newspaper route, if you will, around many 
nations, and doing a lot of training with our partners. It's an 
international effort where we are recurring and revisiting each 
year, and it's proving to be very effective in bringing some of 
these young African navies and coast guards up by their 
bootstraps to help them with the capacity and capability to 
counter piracy.
    I would hasten to add that the number one target of that, 
the Nation of Nigeria, is a little bit more difficult to work 
with in that regard. They are very protective of their 
sovereignty although we have had experience with them. They've 
been aboard the Africa Partnership Station.
    But it is an area we need to watch closely and continue our 
efforts. I would say that the 1206 is essential to our ability 
to contribute to their capacity.
    Senator Inhofe. Good. Nigeria has always been a problem, 
all the way back to Sani Abacha and Obisanjo. I think it's more 
of a leadership problem than anything else.
    Nobody else on my side, Mr. Chairman, is interested in 
pursuing this.
    Senator Webb. Thank you very much, Senator Inhofe.
    We appreciate the testimony of all the witnesses today and 
the hearing stands adjourned.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kay R. Hagan
                 assistance to local somali governments
    1. Senator Hagan. Secretary Flournoy, Secretary Gates referenced 
discussions within the administration to engage with local Somali clans 
and governments. Would this encompass training/equipping security 
forces in Puntland and Somaliland?
    Secretary Flournoy. The U.S. is currently reviewing the Somalia 
strategy. At this time, the U.S. effort in Somalia remains focused on 
how the U.S. can best support Somali efforts to promote security and 
stability throughout the country. The U.S. does not have a physical 
presence in Somalia, and is constrained by lack of a bilateral partner 
in Somalia. The Department of Defense (DOD) does not conduct 
traditional military assistance, such as train and equip programs, with 
any element or security force in Somalia.

    2. Senator Hagan. Secretary Flournoy, does it involve engaging with 
former warlords?
    Secretary Flournoy. No. The DOD is not involved in security sector 
reform efforts in Somalia.

    3. Senator Hagan. Secretary Flournoy, I believe the U.S. Government 
only recognizes the Transitional Federal Government (TFG) of Somalia. 
Would engaging with Puntland without the consent of the TFG or 
Somaliland send a negative signal?
    Secretary Flournoy. DOD does not believe that working with Puntland 
or other legitimate governing authorities inside Somalia would be, by 
definition, prejudicial to or at odds with our support to the TFG. DOD 
believes it is possible, working in close coordination with the 
relevant elements of the Department of State, to engage directly with 
the Governments of Puntland and Somaliland as well as the TFG to 
advance our counter-piracy plans, while at the same time preserving and 
even affirming the role of the TFG in governing Somalia. Historically 
the TFG has been supportive of international counter-piracy efforts, 
including granting permission for those States conducting counter-
piracy operations to enter Somalia's territorial waters.

    4. Senator Hagan. Secretary Flournoy, how are we mitigating 
potential issues associated with links to warlords and individuals 
linked to al Qaeda, al-Shabaab, or both?
    Secretary Flournoy. Even before the most recent spike in piracy off 
the Horn of Africa, U.S. intelligence agencies were closely and 
persistently monitoring the piracy situation in Somalia to determine 
whether there is a link between piracy and terrorist organizations 
inside Somalia or elsewhere. This analysis has found no such nexus thus 
far. Nor is there any evidence that Somali warlords are connected to 
piracy, although the piracy does have a clear basis in Somalia's system 
of clans and sub-clans. DOD recognizes the possibility that 
relationships could still develop between the pirates on one hand and 
terrorists and warlords on the other, and will continue to work with 
the Intelligence Community to ensure we have an accurate understanding 
of the situation.

                     yemen--naval capacity building
    5. Senator Hagan. Secretary Flournoy and Ambassador Mull, the 
United States has provided tens of millions of dollars in assistance to 
the Yemeni Government over the past 9 years to include training to the 
Yemeni Coast Guard. To date, I have not read reports of the Yemeni 
Coast Guard playing an active role in the international counter piracy 
effort. Are there plans to provide additional capacity building 
assistance to the Government of Yemen, and, if there is any discussion 
of assistance, do we believe the Yemeni Government has the political 
will to assist in this fight, particularly in light of their large 
Somali refugee population?
    Secretary Flournoy. The Yemen Coast Guard (YCG) has made progress 
in unilateral action and multilateral cooperation on counter piracy 
efforts in the past year. Although YCG lacks a blue-water capability, 
the YCG has made tangible contributions to regional maritime security 
by patrolling its territorial waters and monitoring its ports. On March 
2, 2009 elements of the YCG successfully repelled an attack on a South 
Korean-flagged vessel, the Pro Alliance. In addition, the YCG was 
integral in Yemen's participation at international counter piracy 
forums, and has lobbied the international community to establish a 
regional maritime security and counter piracy coordination center in 
Yemen.
    The growth of piracy in the Gulf of Aden in the past 18 months has 
negatively impacted Yemen's already frail economy and, as a result, 
forced Sana'a to take the issue seriously and expand its counter piracy 
efforts. While the Republic of Yemen Government (ROYG) has the 
political will to assist in counter piracy operations, the ROYG lacks 
the resources to adequately develop the maritime security capacity of 
the YCG. Consequently, the ROYG relies heavily on foreign military 
assistance, including from the United States, to train and equip the 
YCG.
    Ambassador Mull. Due to its location across the Gulf of Aden from 
Somalia, Yemen is a country that has borne most of the brunt of the 
problem of piracy, a problem attributable to the lack of a functioning 
government in Somalia. The number of piracy incidents in the Gulf of 
Aden has increased dramatically in 2009 and many of these incidents 
occurred close to the Yemeni coast. The implementation of the Maritime 
Security Patrol Area (MSPA) in 2008 which concentrates shipping lanes 
in an area just outside Yemeni territorial waters has had as one 
consequence an increase in piracy attacks in this area.
    Yemen's Coast Guard was created in 2001 to protect Yemen's ports 
and coastal areas (Yemen has an almost 2,000 km coastline) and has 
received both equipment and training from the United States. Yemen's 
Coast Guard is considered one of the most professional and competent 
units of Yemen's armed services and has welcomed offers of engagement 
and training from the U.S. and other western nations to undertake their 
mission.
    The Yemeni Coast Guard does not currently have deep water boats 
capable of patrolling further out to sea (including to the MSPA) where 
most pirate attacks occur. The U.S. has provided four 42' Archangel 
fast response boats and twelve 25' Defender class boats to the Yemeni 
Coast Guard since 2001 as well as other logistical and maintenance 
equipment. All of the boats provided are for littoral coastal patrols 
consistent with the border security and counter terrorism function of 
the Coast Guard.
    The Departments of State and Defense are currently looking into 
ways to assist the Yemenis in stepping up their anti-piracy efforts, as 
well as their efforts to combat arms, drug, and human smuggling in the 
Gulf of Aden.
    Despite its capacity limitations, Yemen has conducted a number of 
counter-piracy operations, including the Yemeni Navy's recent 
recapturing of a Yemeni tanker that had been pirated on April 27. The 
Departments of State and Defense have in the past also supported the 
Yemeni Navy, and will continue to consider the merits providing future 
support. Yemen has approximately 50 pirates in custody awaiting trial, 
who have been captured by the country's own naval forces and also 
include pirates transferred to Yemen for prosecution by the Russian, 
Indian, and Danish navies in recent months. The Yemeni government is 
very forward leaning in its intention to combat piracy, to include its 
participation in the Contact Group on Piracy off the Coast of Somalia 
and frequent bilateral discussions with the United States on how best 
to work together in these efforts.

                      piracy in the gulf of guinea
    6. Senator Hagan. Secretary Flournoy, Vice Admiral Winnefeld, 
Ambassador Mull, and Mr. Caponiti, while much focus has been on the 
acts of piracy off the coast of Somalia, earlier this year, I discussed 
the issue of piracy and oil bunkering in the Gulf of Guinea with 
Commander of U.S. Africa Command (AFRICOM), General Ward. Incidents of 
piracy in the Gulf of Guinea are reportedly on the rise--I suspect 
inspired by the reports of riches from ransom payments made to Somali 
pirates. Please comment on the threat of piracy in the Gulf of Guinea 
and whether the United States is working with our partners to address 
this threat.
    Secretary Flournoy. As recently as 2007, the Gulf of Guinea was the 
most active part of the world for piracy, but pirate activity is 
increasingly now found along the Somali coast. To combat piracy in the 
Gulf of Guinea, the DOD has a very active program that we call the 
Africa Partnership Station (APS), which uses National Defense 
Authorization Act section 1206 funds to conduct training with our 
partners in the region. It's an international effort that we are 
renewing and revisiting each year, and it's proving to be very 
effective in helping modest African navies and coast guards expand 
capacity and capability to counter piracy. It is an area that we need 
to watch closely and in which we need to continue our efforts. Access 
to adequate funding streams is essential to our ability to contribute 
to their development.
    Admiral Winnefeld. Violence in the Gulf of Guinea maritime domain 
is very different from what is occurring off Somalia. It is largely 
concentrated in the territorial waters of Nigeria with some occasional 
spill-over into the Cameroon and Equatorial Guinea maritime domain as 
well as some offshore oil installations in international waters (but 
within the Nigerian Exclusive Economic Zone). Most incidents can be 
attributed to the militant unrest in the Niger Delta. The perpetrators 
are ultimately seeking a greater cut of oil wealth vice profit from 
ransom. This has been going on for much longer than the Somali problem.
    We are working with several current partners (and looking for new 
partners) to address the threat. Our main effort is through building 
partner capability of African maritime defense and security forces 
through such activities as APS. APS uses U.S. Navy, Coast Guard, and 
interagency personnel, as well as persons from European allies, to help 
train African navies and coast guards, fisheries organizations, port 
security organizations, and others. Additionally there are initiatives 
being supported by DOD to help the African Union develop an integrated 
maritime security strategy. These capacity building efforts develop 
legitimate maritime activities, which, in turn, reduce the perceived 
benefits of illicit activities such as piracy.
    Ambassador Mull. The Department of State has been deeply concerned 
by the recent escalation in piracy and armed robbery at sea in the Gulf 
of Guinea, which negatively impacts regional stability and development 
and threatens U.S. investments, American citizens working in the 
region, and energy security.
    The United States' approach to addressing the threat of piracy and 
armed robbery at sea in the Gulf of Guinea has focused on capacity-
building and technical assistance to partner nations. Since fiscal year 
2006, the United States has provided over $25 million in maritime 
security assistance to Gulf of Guinea countries (Cote d'Ivoire through 
Gabon). The United States is also encouraging increased engagement by 
the African Union and subregional organizations such as the Economic 
Community of Central African States, the Economic Community of West 
African States, and the Gulf of Guinea Commission on this issue. The 
United States has also advocated an increased role for the North 
Atlantic Treaty Organization (NATO) in African maritime security 
capacity building; in April, President Obama and NATO heads of state 
agreed to launch an initiative that will support maritime security 
capacity development for the African Union.
    Mr. Caponiti. The Maritme Administration issued ``Marine Advisory 
2008-01'' on December 4, 2008, warning of piracy and criminal activity 
in the waters off of the coast of Nigeria. The Office of Naval 
Intelligence also lists all of the piracy and criminal activity in the 
waters off of the coast of West Africa in their weekly ``World Wide 
Threats to Shipping'' report which are also pushed to industry. The 
piracy in the Gulf of Guinea is more violent and robbery is the 
motivation, as compared to demanding ransom for hostages. The Gulf of 
Guinea does have U.S. flag vessel operating primarily in the offshore 
oil industry which have implemented security measures. The recently 
updated U.S. Coast Guard Maritime Security Directive also applies to 
those vessels.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                       u.s. policy towards africa
    7. Senator Burris. Ambassador Mull, in your testimony, you stated 
that the United States. has a multifaceted strategy to suppress piracy 
that many departments and agencies are working hard to implement, and 
the Department of State is working with interagency partners to 
integrate our maritime and land-based efforts in Somalia into a 
comprehensive strategy. What do you understand to be the U.S. policy 
regarding the continent of Africa--are you aware of a comprehensive 
policy or do we have the various ambassadors interpreting policy, and 
do we address each country individually?
    Ambassador Mull. U.S. policy regarding the continent of Africa is 
described in the administration's fiscal year 2010 congressional budget 
justification. The tenets of our comprehensive policy towards Africa 
are democracy, good governance, peace and security, human rights, 
economic growth and prosperity, and investment in the education and 
health of people. Our policy takes into account transnational issues 
such as terrorism and trafficking in persons and in narcotics.
    These overarching policy objectives for Africa were developed in 
close consultation with senior staff of the interagency community, 
including the National Security Council, the U.S. Agency for 
International Development, and the DOD. They are shared in Washington 
and with our Ambassadors. The administration's overarching policy 
objectives are projected through U.S. Ambassadors serving at Embassies 
in sub-Saharan Africa, who use them to set their own policy priorities.
    We implement our policy at the country level as well as with sub-
regional African organizations such as the Economic Community of West 
African States, with the African Union, and through the United Nations 
and other international organizations.

                        arming commercial ships
    8. Senator Burris. Secretary Flournoy, in your testimony, you 
stated that although the merchant shipping industry has made 
significant improvements in on-ship security measures over the last few 
months, far more is needed. Is there a particular statute addressing 
commercial ships being armed and what is the U.S. policy toward the 
arming of commercial vessels?
    Secretary Flournoy. There is no statute on arming commercial ships. 
With regard to U.S. Policy, the U.S. Coast Guard has issued its 
Maritime Security Directive, which has a requirement for armed or 
unarmed security teams if the vessel is at high risk of being pirated. 
Although the United States has not required any vessels to have armed 
security teams, we are working both domestically and internationally to 
overcome any obstacles to the use of such teams where appropriate.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                       rescue of captain phillips
    9. Senator Inhofe. Vice Admiral Winnefeld, the rescue of Captain 
Richard Phillips of the Maersk Alabama was a flawless special 
operations mission. Please give details to the extent you are able to 
do so in an open session. How did the Navy Sea, Air, and Land Forces 
(SEALs) get to the scene?
    Admiral Winnefeld. [Deleted.]
    We can provide additional details, but it would require a higher 
classification brief. Please let us know when you would like us to 
brief you and we will be more than pleased to provide it.

    10. Senator Inhofe. Vice Admiral Winnefeld, how long did it take 
from notification to arrival?
    Admiral Winnefeld. From notification to arrival at the scene, it 
took approximately 23 hours.

    11. Senator Inhofe. Vice Admiral Winnefeld, other than the three 
snipers, how large a force was involved?
    Admiral Winnefeld. [Deleted.]
    We can provide additional details on their composition, but it 
would require a higher classification brief. Please let us know when 
you would like such a brief and we will be more than pleased to provide 
it.

    12. Senator Inhofe. Vice Admiral Winnefeld, what was the role of 
the Commanding Officer of USS Bainbridge?
    Admiral Winnefeld. The Commanding Officer was pivotal in the rescue 
of Captain Phillips. With guidance from the FBI, he negotiated with the 
pirates to protect the life of Captain Phillips. He ensured Bainbridge 
took decisive actions to prevent the lifeboat from getting ashore. 
Finally, he was the on-scene commander during the final stages of the 
rescue operation.

    13. Senator Inhofe. Vice Admiral Winnefeld, how did the Commander 
of the Anti-Piracy Task Force, Combined Task Force (CTF)-151, fit into 
the chain of command?
    Admiral Winnefeld. Technically, this operation was not done by CTF-
151, but instead it was done under U.S. national authority through Task 
Force-51 (TF-51). TF-51 and all the forces deployed in support of this 
operation were under the command and control of Commander, U.S. Central 
Command.

    14. Senator Inhofe. Vice Admiral Winnefeld, what were the key 
decisions that allowed the mission to be successful?
    Admiral Winnefeld. There were many key decisions made during the 
operation, from decisions by the President to the decisions of the 
outstanding Sailors aboard USS Bainbridge.
    The first key decision was Commander, U.S. Naval Forces Central 
Command immediately sending USS Bainbridge to the scene followed by the 
USS Boxer. Given the necessary guidance, their early presence helped 
influence the actions that resulted in the successful operation.
    The second key decision was the use of the Maritime Operational 
Threat Response (MOTR) Plan to coordinate within the interagency. With 
two daily sessions until Captain Phillips was rescued, it proved a very 
useful means to coordinate the entire interagency on what was happening 
and what we should do.
    The third key decision was made by the Secretary of Defense to 
deploy and place special operation forces aboard the USS Bainbridge to 
conduct this mission.
    The fourth key decision was the President authorizing the use of 
requisite force.
    Finally, the most important decisions were made by the Commanding 
Officer, the crew, and the Special Operations Forces aboard USS 
Bainbridge. The Commanding Officer and the crew kept the life boat at 
sea, without escalating the situation. The Commanding Officer and the 
crew were able to bring one suspected pirate aboard USS Bainbridge 
without the use of force. Finally, when a threat materialized against 
Captain Phillips, the Special Operation Forces judged the situation 
and, with the guidance given to them by their leaders, took the 
decisive action to protect Captain Phillips. All the Sailors aboard USS 
Bainbridge exercised their best military judgment under the authorized 
rules of engagement and proved that they are true professionals.

    15. Senator Inhofe. Vice Admiral Winnefeld, what did we learn from 
the experience?
    Admiral Winnefeld. Constant communications and collaboration--among 
the interagency and among military forces--were essential to conduct 
this operation successfully. Moreover, patience in handling an 
extremely complex and dynamic hostage situation paid off.

    16. Senator Inhofe. Vice Admiral Winnefeld, as a result of this 
operation, will the Task Force have SEALs permanently assigned?
    Admiral Winnefeld. There are no plans to assign U.S. Navy SEALs to 
CTF-151; however, there are SEALs readily available within the Central 
Command area of responsibility for short notice retasking if required.

    17. Senator Inhofe. Vice Admiral Winnefeld, were the Rules of 
Engagement sufficient for the mission?
    Admiral Winnefeld. Yes the rules of engagement provided were 
sufficient (and proved successful) for this mission.

    18. Senator Inhofe. Vice Admiral Winnefeld, some Somali tribes have 
threatened revenge because the pirates were killed. How do you assess 
that threat to both civilian crews and U.S. Navy sailors?
    Admiral Winnefeld. We have not seen any corroboration of the threat 
or indication that the pirates intended to carry it out. Of course, 
even without the threat, there is risk to civilian crews and U.S. Navy 
sailors from these armed pirates. We are constantly monitoring 
indications of risk to our Sailors or civilian crews.

                           ctf-151 operations
    19. Senator Inhofe. Vice Admiral Winnefeld, the United States 
established CTF-151 to combat piracy off Somalia in January. What 
nations are currently contributing to the task force?
    Admiral Winnefeld. Currently, six nations are contributing, or in 
the past have contributed, forces: Denmark, Republic of Korea, 
Singapore, Turkey, United Kingdom, and United States. Australia and 
Pakistan have indicated that they will contribute in the future.

    20. Senator Inhofe. Vice Admiral Winnefeld, what other nations are 
conducing national operations to protect their shipping off Somalia and 
how does CTF-151 coordinate with ships from those other navies?
    Admiral Winnefeld. We have seen India, Iran, Japan, Malaysia, 
People's Republic of China, and the Russian Federation all deploy 
assets to protect their shipping. With the exception of Iran, which 
just arrived in theater, all ships are coordinating well with CTF-151, 
including passing unclassified information, meeting in Bahrain at the 
Shared Awareness and Deconfliction (SHADE) meeting, and working to 
repress piracy. Note, Malaysia has been invited to the SHADE meeting, 
but it has not attended yet.

    21. Senator Inhofe. Vice Admiral Winnefeld, have there been any 
problems with the Russians, Chinese, Indian, or Pakistani navies?
    Admiral Winnefeld. No, there have not been any problems with the 
Russian, Chinese or Indian navies. In fact, as indicated above, all the 
navies have been working hard to coordinate operations and to meet to 
discuss tactics on how to best repress piracy. Note, the Pakistani Navy 
has not deployed to conduct counter-piracy operations off the coast of 
Somalia yet; when they do, we anticipate them to work well with us, as 
they have been a reliable partner in our counterterrorism task force 
150.

    22. Senator Inhofe. Vice Admiral Winnefeld, do we share 
intelligence with these non-NATO, non-European Union navies?
    Admiral Winnefeld. We share unclassified intelligence with those 
nations attending the SHADE meetings. We are also sharing classified 
intelligence with some of our non-European allies in accordance with 
our standard procedures.

    23. Senator Inhofe. Vice Admiral Winnefeld, what would you expect 
the navies operating on national missions to do if a U.S-flagged ship 
came under attack and they were the closest warship?
    Admiral Winnefeld. In light of the obligation under international 
law for all ships to aid mariners in distress, we would expect other 
navies to assist U.S. flagged ships and we have seen that occur, most 
recently with the Maersk Virginia incident when the Italians assisted 
her on 22 May 2009.

    24. Senator Inhofe. Vice Admiral Winnefeld, how big an area is the 
Task Force trying to police?
    Admiral Winnefeld. The Task Force operates in the Gulf of Aden and 
off the eastern coast of Somalia, an area over 1 million square miles.

    25. Senator Inhofe. Vice Admiral Winnefeld, are there enough ships 
to be effective?
    Admiral Winnefeld. While we could always use more ships, the key to 
effectiveness so far has not been the number of ships, but instead the 
efforts taken by industry to evade capture. For example, for a 2 month 
period from 25 February to 20 April, we found that 78 percent of ships 
that evaded an attack did so because of their use of best practices 
(increased speed, evasive maneuvers, etc). Only 22 percent of the 
unsuccessful attacks were the result of military intervention.

    26. Senator Inhofe. Vice Admiral Winnefeld, how is coverage 
enhanced by helicopters and do we have enough?
    Admiral Winnefeld. Helos increase our coverage area by a factor of 
12 as compared to just warships. They are a great asset and we can 
always use more, but the number of helos is limited by the number of 
hangars we have available on the ships deployed.

    27. Senator Inhofe. Vice Admiral Winnefeld, how are pirates being 
held at sea once they are captured?
    Admiral Winnefeld. We hold them aboard ships, after the crews have 
been trained on handling of suspected pirates. We have safeguards in 
place to ensure humane treatment of the suspected pirates.

    28. Senator Inhofe. Vice Admiral Winnefeld, do U.S. crews have 
sufficient training and resources, including detention facilities, to 
hold pirates aboard ships?
    Admiral Winnefeld. Yes we have sufficient training and resources. 
Commander, U.S. Naval Forces Central Command has extensive training for 
the ships holding pirates, which includes in-depth use of force 
guidance, religious needs guidance and full-dress rehearsals (including 
reception, searching, evidence collection, medical, and eating). As for 
facilities, it depends on the ship class. Amphibious ships are designed 
to have extra personnel aboard and can handle the suspected pirates. 
Cargo ships have large spaces and are also able to hold suspected 
pirates. However, our frigates, destroyers and cruisers do not have 
excess capacity for berthing (that is, berthing size is based on crew 
size); as a result, although we have been able to hold suspected 
pirates aboard these classes of ships, admittedly it has been a 
challenge.

    29. Senator Inhofe. Vice Admiral Winnefeld, how long can pirates be 
detained at sea?
    Admiral Winnefeld. We do not believe there is any maximum time 
under the law, but we can assure you that we try to get them off the 
ship as soon as possible.

    30. Senator Inhofe. Vice Admiral Winnefeld, what do we do with 
pirates if we determine we don't have enough evidence to prosecute?
    Admiral Winnefeld. If the evidence is insufficient for prosecution, 
we release them. But before doing so, we will confiscate and destroy 
their weapons and other paraphernalia. We will destroy any skiffs as 
long as they have a means to travel safely back to shore.

    31. Senator Inhofe. Vice Admiral Winnefeld, what is being done to 
dispose of suspected pirate vessels and weapons?
    Admiral Winnefeld. As indicated in question 30, if we release 
pirates, we will confiscate and destroy their weapons and other 
paraphernalia. We will destroy any skiffs as long as the suspected 
pirates have a means to travel safely back to shore.

    32. Senator Inhofe. Vice Admiral Winnefeld, what is the role of the 
Coast Guard in conducting these operations?
    Admiral Winnefeld. The Coast Guard has done an outstanding job in 
providing law enforcement detachments, who have both conducted 
boardings and provided crucial training to our U.S. Navy boarding 
teams.

                            piracy scorecard
    33. Senator Inhofe. Secretary Flournoy and Mr. Caponiti, how many 
vessels and how many people are currently being held by pirates?
    Secretary Flournoy. The number of vessels and people being held at 
any given moment varies, depending largely on sea and weather 
conditions and the consequent ability or inability of pirates to 
operate. In the recent past, the number of ships held has varied from 
as relatively few as 9 to as many as 18. The number of persons held 
hostage has ranged from 100 to nearly 300. As of today (May 5), there 
were 17 ships and 263 known hostages being held by Somali pirates.
    Mr. Caponiti. According to UKMTO there are currently 14 vessels and 
212 crew being held by pirates.

    34. Senator Inhofe. Secretary Flournoy and Mr. Caponiti, is the 
United States involved in trying to provide relief supplies or 
negotiate for the release of these other vessels?
    Secretary Flournoy. No, the United States has not intervened in the 
conduct of hostage negotiations involving ships of foreign registry and 
situations where foreign citizens are hostages. At times the DOD has 
provided humanitarian support, as necessary, to assist ships released 
by pirates to get underway.
    Mr. Caponiti. MARLO-Bahrain reports for all vessels currently being 
held that ``Negotiations are in progress and due to crew safety owners 
are unable to disclose further.'' We do not know of any U.S. Government 
involvement since the official position of the U.S. Government is not 
to negotiate with terrorist or criminals.

    35. Senator Inhofe. Secretary Flournoy and Mr. Caponiti, how many 
vessels have been attacked and how many taken by pirates since January 
and what is the trend compared to last fall?
    Secretary Flournoy. Since January of this year there have been 87 
vessels attacked and 26 successfully taken. The only observable trends 
compared with last fall are the ebb and flow of the pirates' activity 
corresponding with the arrival and departure of the regions' monsoon 
seasons.
    By way of comparison, during the same time period, January to May 
2008, there were 17 piracy attacks, 9 of which were successful. This 
year-to-year contrast highlights the clear spike in piracy in the Horn 
of Africa region that occurred beginning in the fall of 2008.
    Mr. Caponiti. The,International Maritime Bureau Piracy Reporting 
Centre (IMBPRC)reported on May 12, 2009, that there had been a total of 
114 attempts and 29 successful hijackings during 2009. During all of 
2008 there were 111 attacks and 42 hijackings. The IMBPRC does not 
provide quarterly information.

    36. Senator Inhofe. Secretary Flournoy and Mr. Caponiti, how have 
pirates' operations changed since a larger naval presence has been 
established?
    Secretary Flournoy. The presence of a larger, relatively 
concentrated naval force in the Gulf of Aden appears to have produced 
little change in the pirates' willingness to operate. Pirate attacks 
continue at a higher rate despite numerous arrests, indicating that the 
naval forces operating in the area off Somalia are having little 
deterrent effect other than contributing to a lower pirate success 
rate. Pirates also continue to operate off the east coast of Africa, 
where there is less likelihood of capture, but at distances much 
further out at sea than has previously been the case--up to 900 NM from 
the Somali coastline. These few cases may not represent a ``trend'' or 
pervasive, long-term change in pirate operations, but rather a response 
to shipping lanes shifting farther from the Somali coast.
    Mr. Caponiti. Piracy has continued in the Gulf of Aden (GOA) 
although the success rate is down due in part to the combination of 
increased multi-national naval presence, adverse weather conditions, 
and industry implementing best management practices. However, if the 
current trend in the number of successful seajackings continues, the 
2009, will exceed 2008. Pirates have been switching their operation 
area from GOA to the east coast of Somalia since establishment of the 
Internationally Recommended Transit Corridor which was moved further 
south from the coast of Yemen and straightened to shorten the transit 
time earlier this year.

                         shippers and insurers
    37. Senator Inhofe. Secretary Flournoy and Mr. Caponiti, what 
efforts have shipping companies and insurers made to address the 
increased threat of piracy?
    Secretary Flournoy. International shipping organization and 
insurance underwriters adopted Best Management Practices (BMPs) that 
have since been accepted by the Contact Group on Piracy off the Coast 
of Somalia (CGPCS) for further dissemination. CGPCS Working Group 3, 
which focuses on the commercial shipping, includes insurance 
underwriter representatives. Both the international shipping 
organizations and the insurance underwriters continue to promote the 
use of BMPs.
    These recommended practices include conducting vulnerability 
assessments for individual vessels, conducting anti-piracy response 
drills, using recommended transit corridors, increasing lookouts while 
in high-threat areas, minimize deck lighting during hours of darkness, 
et cetera.
    It also remains true, however, that commercial shipping companies 
and their insurers continue to pay ransoms to have their vessels 
released, thus providing a powerful incentive and the financial 
wherewithal to perpetuate the pirates' activities. The United States 
has actively pressured flag and victim States to take action to prevent 
the payment of ransom, but it remains a critical and largely unresolved 
enabling mechanism.
    Mr. Caponiti. The organizations that represent the vast majority of 
world shipping have collaborated in combating piracy. This includes the 
development of widely distributed BMPs. Insurers have also promulgated 
the BMPs and have kept rates reasonably low for those ship owners who 
follow them. In addition, industry representatives are working 
alongside the European Union-led naval force operations center, 
referred to as Maritime Security Center-Horn of Africa. Shipping 
companies and insurers are closely monitoring the situation in order to 
adapt as pirates change their tactics,

    38. Senator Inhofe. Secretary Flournoy and Mr. Caponiti, have 
insurance rates gone up or down since the larger navy presence has been 
established?
    Secretary Flournoy. The insurance rates have leveled off after a 
slight increase. The rates are impacted by the number of successful 
pirate attacks. The Navy presence has a positive effect by decreasing 
the number of successful attacks.
    Mr. Caponiti. Insurance rates reflect the number and severity of 
successful attacks. It is possible that the larger international naval 
presence, may be having a positive effect on decreasing the number of 
successful attacks, and hence, lower insurance rates. However, it is 
also possible that combined effect of the embarkation of private 
security teams, employment of BMPs, and higher sea state due to the 
recent monsoon season may be contributing to that decrease. With no 
empirical or actuarial data available, it is difficult to ascertain the 
specific impact of any of these factors upon present insurance rates. 
Further, we do not know how many attacks would have been successful 
without the naval presence or in the absence of the other factors. The 
insurance industry has voiced a preference for a military presence over 
the use of private security guards.

    39. Senator Inhofe. Secretary Flournoy and Mr. Caponiti, how has 
the use of force to rescue Captain Phillips changed what shippers and 
insurers are doing?
    Secretary Flournoy. DOD is aware that in the particular case of the 
Maersk Alabama, after it was liberated and put into port in Mombasa, 
Kenya, the vessel adopted several self-protection measures before it 
embarked for its return voyage out of Mombasa. DOD has no specific 
knowledge of similar actions taken by other shippers, but it appears 
the dramatic capture and release of Captain Phillips, and the 
subsequent successful evasion and escape from Somali pirates of the 
U.S.-flagged vessel Liberty Sun, graphically illustrated the need for 
and utility of robust self-protection measures.
    Mr. Caponiti. Due to post-incident threats from pirates in the 
media, the successful Captain Phillips rescue may have raised industry 
concerns over a possible escalation in violence. However, to date there 
is no evidence that industry concerns have materialized into more 
aggressive behavior or targeting by the pirates. The fact that the 
pirates were able to board the M/V Maersk Alabama, which was capable of 
faster speeds relative to other vessels boarded by pirates, also raised 
concerns that caused vessel owners to take additional security 
measures.

    40. Senator Inhofe. Secretary Flournoy and Mr. Caponiti, has there 
been an increase in willingness to use armed guards aboard merchant 
ships?
    Secretary Flournoy. Historically there has been strong reluctance 
to employ armed security on board merchant ships, due to legal, 
liability and cost concerns as well as a fear over an escalation in 
violence. There has been no discernable increase in willingness to use 
armed security guards, but the issue is under debate in a variety of 
fora. The DOD continues to emphasize the importance of commercial ships 
taking measures to protect themselves from pirate attacks.
    Mr. Caponiti. As the pirates adapt their techniques and tactics, 
some U.S. flag carriers have opted to use private armed guards in 
response to the number and nature of the hijackings. A number of 
foreign flag carriers, who elect to have armed security, are utilizing 
military personnel. Internationally, there remains significant 
reluctance to using private armed security.

    41. Senator Inhofe. Secretary Flournoy and Mr. Caponiti, recently a 
cruise ship attack was averted by armed security guards on board the 
ship. Do you see a trend in using armed guards aboard high-value target 
ships like cruise ships?
    Secretary Flournoy. The decision to employ armed guards is up to 
individual ship owners, subject to flag-state law and regulation. There 
is no readily available data to know what ships are employing armed 
guards, and no requirement for ships to reveal such information. No 
discernable trend is observable in the use of armed guards aboard high-
value targets.
    Mr. Caponiti. The cruise line industry does not advocate the use of 
armed security guards, but does recognize some companies elect to hire 
them anyway. There is a trend among flag carriers to use private armed 
security guards, especially on the more vulnerable low and slow 
vessels.

         memorandum of understanding with kenya for prosecution
    42. Senator Inhofe. Secretary Flournoy and Ambassador Mull, the 
United States and Kenya entered into a Memorandum of Understanding in 
January for the disposition and prosecution of pirates seized by the 
United States. What is the status of implementing that agreement?
    Secretary Flournoy. The Memorandum of Understanding is operational, 
and, as of May 5, the United States has smoothly transferred seven 
suspected pirates to Kenya for prosecution. Cooperation with Kenyan 
authorities on the case has been excellent.
    Ambassador Mull. The Memorandum of Understanding is operational. In 
February, we transferred seven suspected pirates to Kenya for 
prosecution in accordance with the memorandum of understanding. The 
transfer went smoothly and cooperation with Kenyan authorities on the 
case has been excellent.

    43. Senator Inhofe. Secretary Flournoy and Ambassador Mull, what is 
the capacity of the Kenyan judicial system to manage these cases?
    Secretary Flournoy. Kenya's judicial system has the ability to 
manage piracy cases, but with 6 cases involving approximately 53 
individuals pending as of today (May 5), Kenyan capacity is being 
stretched. We are cognizant of the need to ensure that cases 
transferred to Kenya meet a high standard of evidence for prosecution, 
so that we do not overload an already crowded court docket and limited 
number of prosecutors. The United States continues to work with 
regional states in an effort to establish additional venues for the 
prosecution of Somali pirates. We defer to our colleagues at the 
Department of State for further detail on the state of the Kenyan 
judicial system.
    Ambassador Mull. Kenya's judicial system has the ability to manage 
piracy cases but with seven cases involving 66 individuals pending as 
of May 22, Kenyan capacity is being stretched. We believe that the 
limit of Kenya's capacity to handle piracy cases will be determined 
largely by the quality of cases transferred to Kenya. With an already 
crowded court docket and limited numbers of prosecutors, it is 
essential that the U.S. and other partners of the Kenyan Government be 
highly selective in transferring suspects to Kenya. We should ensure 
that we transfer suspects only in cases where there is strong evidence 
for prosecution. Furthermore, we believe states whose ships or crews 
are directly affected by acts of piracy should take greater 
responsibility for prosecution, and we will continue to press them to 
do so.

    44. Senator Inhofe. Secretary Flournoy and Ambassador Mull, seven 
pirates were turned over by the United States to Kenya in February. 
When will they go to trial and have we run into any problems?
    Secretary Flournoy. Our understanding is that the trial is expected 
to begin in early July. I do not believe we have run into any problems 
related to this case and understand that while the prosecution of the 
suspected pirates is now under Kenyan authority, the U.S. is providing 
assistance to Kenya in relation to the prosecution of this case.
    Ambassador Mull. The trial is expected to begin in early July. The 
prosecution of these seven suspected pirates now rests with the 
Government of Kenya, but the United States is providing assistance to 
Kenya in relation to the prosecution and we have not run into problems 
related to the case.

    45. Senator Inhofe. Secretary Flournoy and Ambassador Mull, who 
pays for detaining the pirates once they get to Kenya and who is 
responsible for their treatment?
    Secretary Flournoy. The Kenyan authorities are responsible for the 
costs of detention and for the treatment of the suspected pirates. In 
the Memorandum of Understanding each party confirms it will treat 
suspected pirates transferred to their territory humanely and in 
accordance with their obligations under applicable international human 
rights law.
    Ambassador Mull. The costs of detention and responsibility for 
treatment lie with the Kenyan authorities. The Memorandum of 
Understanding with Kenya includes a provision under which each party 
confirms it will treat suspected pirates transferred to their territory 
humanely and in accordance with their obligations under applicable 
international human rights law.

    46. Senator Inhofe. Secretary Flournoy and Ambassador Mull, have we 
provided, or offered, any assistance to Kenya or other nations to 
assist with these prosecutions?
    Secretary Flournoy. Yes, the U.S. has provided assistance to Kenya 
to support these prosecutions. I understand from my colleagues at State 
that this assistance includes, but is not limited to, direct contact 
between legal experts and the Kenyan prosecutor's office, legal and 
logistical support on individual cases, and general training on trial 
advocacy and preparation.
    Ambassador Mull. Yes. In addition to providing to Kenya a well-
organized evidence package in the case of suspected pirates captured 
and transferred under the U.S.-Kenya Memorandum of Understanding, our 
legal expert in Kenya has been working closely with the Kenyan 
prosecutor's office to assist their efforts on piracy cases. Among 
other things, we have provided legal and logistical support on 
individual cases, general training on trial advocacy and preparation, 
as well as some supplies and equipment to assist in prosecuting these 
cases as efficiently as possible. In cooperation with the international 
community, we are considering additional ways through which we can 
support prosecutions and judicial capacity in Kenya or other states.

    47. Senator Inhofe. Secretary Flournoy and Ambassador Mull, 
producing evidence and witnesses in Kenya presents obvious challenges, 
particularly if the victim vessel and crew are not from the United 
States. Are we able to get sufficient cooperation to support 
prosecutions?
    Secretary Flournoy. The availability of witnesses from many parts 
of the world is one of the issues Kenya has highlighted to the 
international community as a major challenge. In instances where U.S. 
witnesses are required, the U.S. Government will make every possible 
effort to ensure they are available as needed. I understand the State 
Department has assisted the Kenyan authorities in reaching out to other 
countries to facilitate availability of their witnesses, and believe my 
colleagues from State can provide further detail about these efforts. 
In addition, the United States developed guidelines for collection of 
evidence related to piracy cases, designed to ensure collection of a 
solid evidence package and to minimize the number of witnesses from a 
ship that may have become involved in a piracy incident needed to 
appear at the trial.
    Ambassador Mull. Ensuring the availability of witnesses from many 
parts of the world is one of the issues Kenya has highlighted to the 
international community as a major challenge for them. In instances 
where U.S. witnesses are required, we will make every possible effort 
to ensure they are available as needed. We have also been assisting the 
Kenyan authorities in reaching out to other countries to facilitate 
availability of their witnesses. The United Nations Office on Drugs and 
Crime has also provided assistance in facilitating the appearance of 
witnesses in Kenyan proceedings. In addition, the United States has 
developed a set of guidelines for those collecting evidence related to 
piracy cases that are designed both to ensure collection of a solid 
evidence package and help minimize the numbers of witnesses from a ship 
that may be needed to appear at the trial.

    48. Senator Inhofe. Secretary Flournoy and Ambassador Mull, what 
guidelines apply to U.S. military personnel providing evidence in these 
trials?
    Secretary Flournoy. The Memorandum of Agreement with the Republic 
of Kenya provides that the U.S. will support and assist the Republic of 
Kenya in the conduct of investigations and prosecutions. The 
prosecution of suspect pirates, and the delivery of consequences for 
criminal pirate activity, is an important component of U.S. Government 
policy to reduce instances of piracy in the Horn of Africa region. U.S. 
forces will at times be necessary to testify as witnesses and provide 
evidence in support of prosecutions that flow from counter piracy 
operations. The DOD will support and assist foreign nations willing to 
prosecute captured suspect pirates in the conduct of investigation and 
prosecution, including, when appropriate, facilitating the presence of 
witnesses and evidence consistent with U.S. arrangements with the 
prosecuting nation.
    The U.S. Government has procedures to allow personnel to testify in 
foreign courts on matters concerning their official duties. Issues 
concerning witnesses and evidence are facilitated by Department of 
Justice personnel on-site in Nairobi, Kenya.
    Ambassador Mull. I respectfully refer you to DOD for a definitive 
answer on guidelines regarding their personnel.

    49. Senator Inhofe. Secretary Flournoy and Ambassador Mull, beyond 
Kenya and our own courts, what other countries are we working with to 
prosecute these pirates?
    Secretary Flournoy. The United States has been working with 
regional states in an effort to establish additional venues for the 
prosecution of Somali pirates. However, many of these states are 
reluctant to accept pirates for prosecution since these states are 
largely immune to the deleterious effects of piracy in the region, and 
prosecuting suspected pirates is an expensive and resource-intensive 
undertaking. Moreover, many of these states lack the statutory basis on 
which to prosecute the crime of piracy. The United States has pressed, 
and will continue to press, countries with a direct interest in 
particular piracy cases, in particular flag and crew states, to 
prosecute suspected pirates.
    Ambassador Mull. We believe states affected in a piracy incident, 
which may include the state whose flag is flown by the attacked ship, 
the state(s) from which the owners of the ship in question come, the 
state(s) from which the crew or passengers come, and possibly others, 
must take greater responsibility for prosecutions. We will continue to 
press this point with affected states as new cases arise.

    status of the surviving pirate from the attack on maersk alabama
    50. Senator Inhofe. Secretary Flournoy, the surviving pirate from 
the attack on the Maersk Alabama was taken from USS Bainbridge to New 
York. What is the status of his prosecution?
    Secretary Flournoy. It is our understanding that the surviving 
pirate, Abduwali Abdukhadir Muse, has been indicted and is detained 
pending trial in the Southern District of New York. The charges against 
him include piracy, violence against maritime navigation, kidnapping, 
hostage-taking, and firearm possession. Any questions about the case 
should be directed to the Department of Justice, which is responsible 
for the criminal prosecution.

                       actions ashore in somalia
    51. Senator Inhofe. Secretary Flournoy and Ambassador Mull, what is 
being done by the United States to solve the piracy problem ashore?
    Secretary Flournoy. Finding a long-term solution to the piracy 
problem ashore in Somalia requires addressing Somalia's many governance 
and security issues. The United States continues to support Somali 
efforts to bring stability and security to Somalia, which we believe 
are requisite to shrinking the safe havens for pirates and creating 
viable and sustainable economic alternatives to piracy.
    Ambassador Mull. Finding a long-term solution to the piracy problem 
ashore in Somalia requires addressing Somalia's many governance and 
security issues, as piracy at sea is a direct result of instability on 
land. The United States' main policy objective in Somalia is to create 
political and economic stability, and the U.S. has been a key supporter 
of the United Nations (U.N.)-led Djibouti Peace Process, which was 
successful this past January in electing pragmatist leaders into the 
TFG, expanding the Transitional Federal Parliament to include members 
of the opposition Alliance for the Re-liberation of Somalia (ARS), and 
fostering continued political dialogue and reconciliation. The U.S. 
continues to support the TFG, as well as economic development and 
livelihoods programs in all of Somalia, including in the northern areas 
of Puntland and Somaliland .

    52. Senator Inhofe. Secretary Flournoy and Ambassador Mull, the 
current U.N. resolution appears to authorize use of all necessary means 
not only in the territorial sea of Somalia, but also ashore with the 
consent of the essentially nonfunctioning government. How would we gain 
consent of the Somalia Government to take action ashore?
    Secretary Flournoy. The TFG provided consent for all necessary 
measures in a letter before the resolution was passed. The resolution 
was referring to the consent that had already been received, and as a 
result, no further consent is required.
    Ambassador Mull. U.N. Security Council resolution 1851 allows U.N. 
member states and regional organizations cooperating in the fight 
against piracy for which ``advance notification has been given by the 
TFG to the U.N. Secretary-General'' to undertake all necessary measures 
that are appropriate in Somalia, for the purpose of suppressing acts of 
piracy and armed robbery at sea, pursuant to the request of the TFG.'' 
The TFG itself asked that the Security Council issue this resolution, 
and has already provided the requisite notification to the Secretary-
General certifying that the United States is cooperating on counter-
piracy matters. With that understanding, we would endeavor to 
coordinate with the TFG prior to actions should on shore action be 
appropriate. We maintain clear and open channels of communication with 
the TFG through our Embassy in Nairobi, Kenya and other channels.

    53. Senator Inhofe. Secretary Flournoy and Ambassador Mull, would 
that be necessary in a case of hot pursuit?
    Secretary Flournoy. The TFG has already provided that consent.
    Ambassador Mull. Yes. However, as indicated above, the TFG has 
already notified the Secretary-General that the United States is 
cooperating with it on counter-piracy matters.

    54. Senator Inhofe. Secretary Flournoy and Ambassador Mull, are we 
conducting surveillance over the shoreline to identify pirate havens 
and logistics centers?
    Secretary Flournoy. The U.S. Government is aware of the strong 
linkages between maritime and land based activities, and we are 
conducting regional surveillance, as available, to better understand 
these linkages and issues.
    Ambassador Mull. I respectfully refer you to DOD for a definitive 
answer on whether the United States is conducting surveillance over the 
shoreline to identify pirate havens and logistics centers.

                 broader diplomatic issues with somalia
    55. Senator Inhofe. Secretary Flournoy and Ambassador Mull, what is 
your assessment of the recent U.N.-sponsored peace deal signed last 
year that allowed for Ethiopian troops to withdraw?
    Secretary Flournoy. The U.N.-sponsored Djibouti Process ultimately 
led to the emergence of a ``unity'' TFG and the withdrawal of the 
Ethiopian forces. These are important steps towards achieving a Somali-
led solution to the continued instability in Somalia.
    Ambassador Mull. The TFG and ARS agreed to the Djibouti Peace 
Agreement in June 2008 and formally signed the agreement in August of 
the same year. The agreement paved the way for the creation of the 
current TFG, which is the most inclusive and promising government 
Somalia has had in over 18 years of civil war. The U.S. was pivotal in 
negotiating the agreement and in advising the Somalis as they worked to 
form the current TFG in Djibouti in early 2009, and the relative 
success of the process helped to convince the Government of Ethiopian 
to withdraw its forces from Somalia in January 2009.

    56. Senator Inhofe. Secretary Flournoy and Ambassador Mull, what 
affect has the withdrawal of Ethiopian troops had on the U.N. African 
Union Mission for Somalia?
    Secretary Flournoy. The withdrawal of the Ethiopian troops shifted 
the focus of extremist elements from the Ethiopians to the African 
Union Mission in Somalia (AMISOM), which has come under increased 
attacks, but has been able to continue its mandate of securing key 
installations in Mogadishu.
    Ambassador Mull. The January 2009 withdrawal of Ethiopian troops 
from Somalia has made the AMISOM, which is not a U.N. mission, more of 
a target for extremists in Somalia. Extremists, including designated 
Foreign Terrorist Organization al-Shabaab, used the presence of 
Ethiopian troops within Somalia as a rallying cry to gain support. Once 
the Ethiopians pulled-out, extremists lost their main justification for 
violence, and began to increasingly target AMISOM, describing the 
forces within AMISOM as ``foreign fighters.'' AMISOM has demonstrated 
its determination to outlast these attacks by extremists, and the 
Mission continues to carry out its mandate, which includes protecting 
the TFG and key installations and locations in Mogadishu.

    57. Senator Inhofe. Secretary Flournoy and Ambassador Mull, have we 
identified other African Union nations willing and capable of providing 
additional troops?
    Secretary Flournoy. Uganda and Burundi are the only troop 
contributors for AMISOM, which together make up a total troop strength 
of 4,300. I defer to my State colleagues to provide an update on their 
diplomatic efforts to identify possible other contributors to this 
mission.
    Ambassador Mull. Currently, three Ugandan and two Burundian 
battalions are deployed to AMISOM, giving the Mission total force 
strength of approximately 4,300. We are in the process of facilitating 
the deployment of a third Burundian battalion that will increase the 
total AMISOM force strength to approximately 5,100. Other AU nations, 
such as Nigeria and Ghana, have publicly stated a willingness to 
contribute troops to the Mission, and the Department continues to 
approach African capitals in an attempt to recruit additional forces.

                       strategic goals in africa
    58. Senator Inhofe. Secretary Flournoy and Ambassador Mull, what 
are the broader U.S. strategic goals with respect to Somalia, and for 
the entire Horn of Africa?
    Secretary Flournoy. Throughout the Horn of Africa the U.S. policy 
is to promote political and economic stability and security while 
addressing humanitarian concerns. With regards to Somalia, the U.S 
continues to focus on the elimination of the terrorist threat, 
promotion of security and good governance, reduction of piracy, and 
mitigation of the dire humanitarian situation.
    Ambassador Mull. U.S. policy goals in Somalia, as with the Horn of 
Africa at large, are to create political and economic stability, 
eliminate the threat of terrorism, and address often dire humanitarian 
circumstances. In the case of Somalia, the U.S. is committed to 
eliminating the threat of piracy off its coast, with the realization 
that a long-term solution to the piracy situation requires addressing 
Somalia's many governance and stability issues on land. We continue to 
work closely with other U.S. Government agencies and departments to 
develop joint approaches to these issues.

    59. Senator Inhofe. Secretary Flournoy and Ambassador Mull, does 
our newly established AFRICOM have sufficient authorities and resources 
to initiate and support contingency operations, to include noncombatant 
evacuations, on the Horn of Africa?
    Secretary Flournoy. Yes. USAFRICOM has the requisite authorities 
and in-place procedures to request necessary resources. DOD is in 
communication with the Department of State about potential contingency 
operations.
    Ambassador Mull. We understand that AFRICOM has sufficient 
authorities and will request relevant resources from the DOD, as 
needed, to initiate and support contingency operations in Africa. The 
Department of State defers to the DOD for details regarding the 
authorities and resources of its combatant commands.

    [Whereupon, at 11:37 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
